<html>
<title> - LOBBYING REFORM: PROPOSALS AND ISSUES</title>
<body><pre>[Senate Hearing 109-428]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-428
 
                 LOBBYING REFORM: PROPOSALS AND ISSUES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION




                               __________

                            JANUARY 25, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
26-750                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                       Kurt A. Schmautz, Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                    Troy H. Cribb, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     2
    Senator Voinovich............................................     4
    Senator Levin................................................     5
    Senator Coburn...............................................     6
    Senator Pryor................................................     7
    Senator Warner...............................................     8
    Senator Domenici.............................................     9
    Senator Carper...............................................    10
    Senator Stevens..............................................    12
    Senator Coleman..............................................    22

                               WITNESSES
                      Wednesday, January 25, 2006

Hon. John McCain, a U.S. Senator from the State of Arizona.......    12
Hon. Richard J. Durbin, a U.S. Senator from the State of Illinois    15
Hon. Russell D. Feingold, a U.S. Senator from the State of 
  Wisconsin......................................................    17
Hon. Rick Santorum, a U.S. Senator from the State of Pennsylvania    20
Hon. Dick Clark, Director, Aspen Institute Congressional Program.    26
Hon. John Engler, President and Chief Executive Officer, National 
  Association of Manufacturers...................................    28
William Samuel, Legislative Director, AFL-CIO....................    30
Fred Wertheimer, President, Democracy 21.........................    44
Paul A. Miller, President, American League of Lobbyists..........    46

                     Alphabetical List of Witnesses

Clark, Hon. Dick:
    Testimony....................................................    26
    Prepared statement...........................................    64
Durbin, Hon. Richard J.:
    Testimony....................................................    15
    Prepared statement...........................................    57
Engler, Hon. John:
    Testimony....................................................    28
    Prepared statement with attachments..........................    67
Feingold, Hon. Russell D.:
    Testimony....................................................    17
McCain, Hon. John:
    Testimony....................................................    12
    Prepared statement...........................................    55
Miller, Paul A.:
    Testimony....................................................    46
    Prepared statement with attachments..........................   100
Samuel, William:
    Testimony....................................................    30
    Prepared statement...........................................    79
Santorum, Hon. Rick:
    Testimony....................................................    20
    Prepared statement...........................................    61
Wertheimer, Fred:
    Testimony....................................................    44
    Prepared statement with attachments..........................    84

                                Appendix

Hon. E. Benjamin Nelson, a U.S. Senator from the State of 
  Nebraska, prepared statement...................................   112
AARP, prepared statement.........................................   113
John H. Graham IV, CAE, President and CEO, American Society of 
  Association Executives (ASAE), prepared statement..............   117
Joan Claybrook, President, Public Citizen, prepared statement 
  with attachments...............................................   119


                 LOBBYING REFORM: PROPOSALS AND ISSUES

                              ----------                              


                      WEDNESDAY, JANUARY 25, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:34 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Stevens, Voinovich, Coleman, 
Coburn, Chafee, Bennett, Domenici, Warner, Lieberman, Levin, 
Carper, and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Good 
morning.
    Today, the Committee begins an examination of lobbying 
reform. This hearing will focus on proposals before Congress to 
reform lobbying practices in the wake of scandals involving 
Jack Abramoff and Representative Randy ``Duke'' Cunningham. 
Although the actions of both men violated current laws, they 
nevertheless have prompted a much-needed review of legal 
lobbying activities that raise questions of improper influence 
or the appearance of impropriety.
    We must act to strengthen the laws governing disclosure and 
ban practices that erode public confidence in the integrity of 
government decisions. We must reform rules that allow former 
lawmakers turned lobbyists special access to lobby their former 
colleagues on the Senate floor. We must end the practice of 
allowing members to slip earmarks that have received neither 
scrutiny nor a vote in either the House or the Senate into the 
final versions of legislation.
    All of us here today recognize that lobbying, whether done 
on behalf of the business community, an environmental 
organization, a children's advocacy group, or any other cause, 
can provide us with useful information that aids but does not 
dictate the decisionmaking process. Indeed, lobbying is a word 
that has a long and noble history. It comes to us from Great 
Britain, where the tradition developed that citizens, whether 
acting on their own behalf or for a group, would approach 
members of Parliament in the lobby of that building to offer 
their views on pending legislation. It was done in the light of 
day, and the medium of exchange was ideas.
    Today's lobbying too often conjures up images of all-
expense-paid vacations masquerading as fact-finding trips, 
special access that the average citizen can never have, and 
undue influence that leads to tainted decisions. The corrosive 
effect of this image, and in some cases reality, on the 
public's confidence in the political process cannot be 
underestimated.
    We have an obligation to strengthen the crucial bond of 
trust between those in government and those whom government 
serves. Our Nation faces a great many challenges that Congress 
should address. If the bond of trust between public officials 
and their constituents is frayed, if our citizens believe that 
decisions are tainted by improper influence, then our country 
will be unable to tackle the big issues. No major legislation 
can pass without the support of the American people, and the 
public's trust in Congress is perilously low.
    I am especially pleased that we have with us this morning 
several of our colleagues who will be testifying. They are 
champions of good government, of open and accountable 
government, and I look forward very much to hearing their 
proposals for reform.
    Our other witnesses today offer a broad perspective on 
these issues. They represent business and labor organizations 
that engage in lobbying, a respected public policy institute 
that sponsors travel to conferences, a public policy expert who 
has long advocated reform, and a representative of an 
association of lobbyists. Sometimes even lobbyists need a 
lobbyist. I look forward to hearing their testimony.
    The issue we take up today is serious and it is pressing. 
The right of the American people to petition their government 
is a constitutional guarantee and must not be chilled. At the 
same time, it is imperative that the give and take of advocacy 
focus on the exchange of ideas conducted in broad daylight. The 
American people deserve no less.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks very much, Madam Chairman, 
particularly for moving so quickly to hold this hearing on 
lobbying reform. By doing so, our Committee, under your 
leadership, sends a strong and clear signal that Congress will 
come together across party lines this year to reform our 
lobbying laws and remove the cloud of suspicion that currently 
hangs over this institution.
    It is no secret that the Jack Abramoff scandal is the 
primary reason for Congressional-wide acknowledgement that 
lobbying regulations need reform. Elsewhere, people may argue 
about whether the scandal is partisan. On this Committee, we 
know the response must be bipartisan. The consequences of 
Abramoff's crimes are so antithetical to our way of governance 
and so embarrassing to Congress that Democrats and Republicans, 
House Members and Senators agree that Congress must act, and we 
will.
    Trust between the people and their elected leaders is 
essential to our democracy. The behavior of Mr. Abramoff and 
his associates undercuts that trust and sends the message that 
in Washington, results go to the highest bidder, not to the 
greatest public good. By his guilty pleas, Mr. Abramoff has 
acknowledged that he violated the law. However, his sordid 
story also reveals activity that, while technically legal, is 
nonetheless clearly wrong.
    In government, we must hold ourselves and be held to a 
higher standard, to do not just what is legal but what is 
right. As lawmakers, we now have the opportunity and 
responsibility to make what is clearly wrong also illegal.
    Excellent lobbying reform proposals have been referred to 
our Committee and are now pending here. I have joined with 
Senator John McCain in sponsoring one of them, the bipartisan 
Lobbying Transparency and Accountability Act of 2005. Our 
legislation directly responds to the abuses uncovered by the 
Indian Affairs Committee in the tough and independent 
investigation which Senator McCain chaired. It also, I might 
add, responds to the work done by the Department of Justice 
leading up to the plea bargain that Mr. Abramoff entered a few 
weeks ago.
    The legislation which Senator McCain and I have proposed 
would require more frequent and detailed disclosure of lobbyist 
activities and, for the first time, full disclosure from 
grassroots lobbying firms that are paid to conduct mass 
television or direct mail campaigns to influence Members of 
Congress. Mr. Abramoff used one of these firms, controlled by 
his associate Mr. Scanlon, to conceal millions of dollars of 
payments he overcharged to Indian tribes, which were then 
forwarded to him.
    Under the legislation Senator McCain and I have introduced, 
lobbyists would be required to disclose all payments for travel 
made or arranged, including detailed itemization of trips and 
all gifts over $20. Members of Congress and their staffs who 
fly on corporate jets would have to pay the equivalent of a 
chartered plane rather than just the first-class price of their 
ticket. Lobbyists would also have to disclose campaign 
contributions as well as contributions made to honor public 
officials, and the revolving door between Capitol Hill and K 
Street would spin more slowly under our proposal.
    Senator Reid has also introduced very strong lobbying 
reform legislation, which I am cosponsoring. Senator Santorum, 
who will testify this morning, is working on lobbying reform 
legislation for the Senate Republican Majority. Senator 
Feingold, who will also testify this morning, introduced 
lobbying reform legislation just about a year ago. And Senator 
Coleman has a different kind of proposal about a commission 
here, which I look forward to hearing about.
    But what I want to say in conclusion is that of the three 
proposals that are before us, the one of Senator McCain and 
myself, the one of Senator Reid, the one of Senator Feingold--
and presumably the one that Senator Santorum will soon 
introduce--all share the majority of the provisions in each. 
All of them call for increased disclosure by lobbyists, for 
disclosure of paid grassroots lobbying firms and lobbying 
coalition members, for slowing down the revolving door between 
Capitol Hill and K Street, and for ending the abuse of gift and 
travel rules. There are differences, but they are reconcilable.
    That is why I believe, Madam Chairman, we now have a once-
in-a-generation opportunity to reach agreement on a broad set 
of lobbying reforms that will reduce the cynicism with which 
many of the American people view their government. We cannot 
and will not let partisanship or institutional defensiveness 
stop us from achieving that goal. Frankly, the status quo 
stinks and cries out to us to lead the way in clearing the air.
    Today, we have an outstanding group of witnesses, starting 
off with our colleagues, Senators McCain, Feingold, Santorum, 
Durbin, and Coleman. I look forward to working with them and 
you, Madam Chairman, to pass lobbying reform legislation and to 
do it soon. Thank you.
    Chairman Collins. Thank you. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Madam Chairman. I applaud 
your leadership and thank you for calling this hearing on 
lobbying reform.
    With our election to the U.S. Senate, the citizens of our 
respective States entrusted us to represent their interests in 
a morally correct and ethical, appropriate way. The trust the 
American people have given us is something we must never 
forget.
    As the chairman of the Senate Select Committee on Ethics, I 
have been given a responsibility by my colleagues to ensure 
that the Senate community is true to that trust. It is a heavy 
burden, but one that I am proud to have. I am glad that I am a 
Member of this Committee today because so much of what we are 
going to do will have an impact on the Senate Select Committee 
on Ethics.
    With these thoughts in mind, I believe that we must 
carefully consider the various proposals for lobbying reform 
that have been put forward or that are still being refined. 
This consideration must be mindful of the current rules, 
regulations, and Federal code to ensure that any new rules or 
changes to existing rules do not unintentionally weaken those 
which are already in place. Any changes that are ultimately 
adopted must be the result of thoughtful deliberation, not 
rushed through in an attempt to show the American people that 
we are doing something about the abuses of the systems that 
they read and hear about in the media.
    Madam Chairwoman, our efforts to reform the rules governing 
lobbying must be done in a truly bipartisan fashion. We have a 
responsibility to the Senate as an institution, our 
constituents, and ourselves to use the opportunity before us to 
better the culture in Washington and the Senate. Both sides of 
the aisle must dedicate themselves to improving the Senate 
through lobbying reform.
    Let me assure my colleagues and the American people as 
Chairman of the Senate Select Committee on Ethics that any 
Senator or staff member that is found to be in violation of the 
Senate ethics rules will be dealt with appropriately, as we 
have always done so. I have tried to inform my fellow Senators 
about the ethics rules and what they require.
    I have also observed that there is significant confusion on 
the part of lobbyists regarding their disclosure requirements 
right now. In fact, I had a conversation yesterday with a 
couple lobbyists on this point. They disagreed as to what the 
disclosure requirements required of them. They had different 
perceptions, and I think that is a problem.
    It is also important that we weigh the proposed reform's 
reporting requirements and the costs and administrative 
capacity that will be incurred to administer them versus the 
benefit derived from a more transparent system.
    Madam Chairman, if you would like, I would be happy to hold 
at least one hearing on the capacity currently in place to 
administer and enforce the existing rules on the books. Are we 
enforcing the rules that are on the books right now? Do the 
people out there who are supposed to comply with them know that 
we are enforcing the rules, or do they just file pieces of 
paper and figure nobody pays any attention to them anyhow and 
so they get a little bit careless? I think it is really 
important that the people know if we do pass some additional 
reforms that they are going to be enforced and that we are 
enforcing the current rules and regulations that we have in 
place today.
    And last but not least, we should as a body give 
consideration to the enormous amount of time and energy we 
devote to raising money for our campaigns and our respective 
caucuses. It is out of control. We all hate it, and it is about 
time we collectively think about how we can get off the 
treadmill that has given rise to the Abramoff abuses of the 
system.
    I look forward to hearing the views of my fellow Senators 
as well as the other distinguished witnesses who are with us 
today on how we can reform and improve the current system. 
Thank you.
    Chairman Collins. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Madam Chairman, thank you for holding these 
hearings so promptly, as Senator Lieberman has pointed out.
    In the early 1990s, with the great bipartisan support of 
Members of this Committee and other Members of the Senate, 
Senator Cohen and I coauthored on a bipartisan basis the 
Lobbying Disclosure Act. The reforms that were enacted 10 years 
ago made improvements in both lobbying disclosure and 
Congressional gift requirements. Before we enacted these 
reforms, fewer than 6,000 lobbyists registered and the 
information that registered lobbyists disclosed was widely 
regarded as useless. Under the previous law, under-reporting of 
lobbying receipts and expenditures was endemic and fully 60 
percent of registered lobbyists failed to report any 
expenditures at all.
    Under the reforms that we adopted, the Lobbying Disclosure 
Act, as it is called, more than 30,000 lobbyists have now 
registered and there appear to be providing relatively accurate 
and complete information on their clients, the topics on which 
they lobbied, and the amounts that they have spent on lobbying. 
As a result, while the 10 largest lobbying firms in 1989 
reported a combined lobbying income of less than $2 million, 
the 10 largest lobbying firms in 2002 more accurately reported 
their income, and they reported it at $200 million. Overall, 
roughly $2 billion now in lobbying fees are reported under the 
Lobbying Disclosure Act every year.
    Under the original version of that reform which Senator 
Cohen and I introduced in the 103rd Congress, there were 
toughened enforcement provisions, there was coverage of 
grassroots lobbying, there was zero tolerance for gifts, meals, 
and entertainment from lobbyists, and there were tight rules 
for gifts from others. Because of a filibuster in the final 
weeks of the Congress, we were unable to get that stronger 
version of the bill enacted, and that is a pity. As a result, 
we have seen some of the problems which have recently been so 
dramatized.
    But when we revisited the issue in the next Congress, the 
104th Congress, we dropped some of the provisions, including 
the provision covering grassroots lobbying, the provision which 
called for stronger enforcement, and we had to incorporate a 
somewhat more lenient rule for gifts from lobbyists. We did all 
that in order to get the bill enacted.
    In recent weeks and months, Jack Abramoff and others have 
plead guilty to criminal offenses in connection with their 
lobbying activities. There are indications in press accounts 
that many of their activities may also have violated our 
existing gift rules, as well. As Senator Voinovich has pointed 
out, and I think very accurately and very effectively, our 
existing gift rules seem to have been violated.
    For example, they contain a prohibition on travel that is 
paid for by lobbyists. They contain a prohibition on travel 
that is ``substantially recreational in nature.'' They also 
contain, our gift rules, a rule against a member or staffer 
from accepting gifts with a cumulative value in excess of $100 
from any one source in a calendar year. What we have read about 
raises some very significant questions as to whether our 
existing rules have been effectively enforced by us, and that 
needs to be done, obviously.
    But these recent events also dramatize the need to close 
loopholes in the existing law, as well. For instance, we must 
prevent the sponsors of lobbyists from hiding their identities, 
either when it comes to paying for travel or participating in 
coalitions. We have got to ensure the disclosure of paid 
efforts to generate grassroots lobbying campaigns. We have got 
to tighten up the gift rules. We should not permit gifts from 
lobbyists and others. We have got to prevent the abuse of 
privately reimbursed travel for Members of Congress and 
Congressional staff.
    So our work is cut out for us. While criminals have 
violated existing laws and while existing rules seem to be at 
least stronger than they have appeared to be because of perhaps 
weak or lax enforcement on our part, there are also some gaping 
holes in the law which must be removed. That is our 
responsibility. This Committee has performed that 
responsibility in the early 1990s when we were able to get the 
current version passed, which did some good, but there is much 
more to be done. Under the leadership of our Chairman and 
Ranking Member, I have every confidence that we will rise to 
this occasion. Thank you.
    Chairman Collins. Senator Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Madam Chairman, thank you, and Ranking 
Member, thank you, as well.
    I probably will be the odd man out on this panel. I don't 
believe lobbying reform is the problem. I believe Congress is, 
and we are going to do a lot of things over the next 3 to 6 
months that are going to look good on paper, but until you 
change the motivations of the institution, you are not going to 
change the behavior. Until we eliminate earmarking, the process 
of putting the well-heeled above those that aren't able to be 
in that position, until we change the motivation that the next 
election is more important than the next generation, we won't 
solve problems. The problem is us.
    Transparency and reporting solves all that, not more rules, 
not more pads, not more things to mark down, but the fact is 
the American people need to see what we do and how we do it, 
and that comes through transparency. The very idea that 
somebody's vote can be bought for a golf game and a trip is 
ludicrous, and if that is the case, they shouldn't be here. We 
ought to be real frank with the American people. We are going 
to do a lot of window dressing, but in the long run, we are not 
going to change anything until we change the motivation that 
the next election is more important than anything else, and 
when we do that, then we will have ethical behavior in 
Congress, and until we do that, we won't. Thank you.
    Chairman Collins. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chairman. I want to thank 
you and Senator Lieberman for your leadership on this. It is so 
important for the Congress that we get this right.
    I guess one of the benefits of being the new kid on the 
block, so to speak, is for years and years, I watched the 
Senate from the outside, and one of the reasons I ran for the 
Senate, quite frankly, was to do my part and do my best to try 
to restore some public confidence in the institution here in 
the House and the Senate as well as the Executive Branch.
    I think that people all over this country and certainly 
people in Arkansas feel very strongly that public policy should 
be based on the marketplace of ideas, not on the marketplace of 
political favors. I think that the silver lining in this very 
dark Jack Abramoff cloud and some other of the scandals that 
are going on here in Washington is that the people are going to 
expect, and in fact will demand, that we do our part to make 
things here in Washington run better.
    I am not going to say a lot more because I want to hear our 
panels this morning, but I do want to thank all my colleagues 
who are offering proposals because I think all the proposals 
have a lot of merit. Just for the Committee's benefit, I think 
my approach is going to be to look at all of these proposals, 
take them all very seriously, and try to take the best ideas 
out of all the proposals. I think, like Senator Voinovich said, 
this is not a partisan issue. This is something that we, as 
Members of this body, owe to the American people. We owe it to 
our Founding Fathers. We owe it to the history of this country 
that we get this right.
    So my approach will be very nonpartisan or bipartisan, try 
to look at what everybody has. I think everybody is offering 
things that are very genuine and have a lot of merit. But I 
look forward to spending time in this Committee and in other 
settings to really delve into some of this and try to do the 
right thing for this Congress. Thank you.
    Chairman Collins. Senator Warner.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you, Madam President--excuse me, 
Madam Chairman and other members----
    Chairman Collins. I liked that.
    Senator Warner. I know you do. [Laughter.]
    You thought it was an ad lib slip. I put it right out 
there.
    Senator Lieberman. Senator Collins would accept Commander 
in Chief. [Laughter.]
    Senator Warner. No, she doesn't want that job. [Laughter.]
    I feel it a privilege to be on this Committee and to join 
with my colleagues as we take on this challenging task. But, I 
do want to reflect just a minute, being one of the older guys 
on the block. Senator Levin and I came to this institution 28 
years ago. I calculated we have served under five Presidents, 
seven different Majority Leaders, and 241 Senators have come 
and gone since we have been here. The vast majority of those 
individuals have been highly dedicated and done their very best 
to make this great republic stronger.
    I want to talk about some things that have grown and some 
things that haven't grown in that period of about a quarter of 
a century. First, the cost of campaigns. My first campaign--I 
have been elected five times--cost a little over $1 million, 
and it was under some unusual circumstances, but today we have 
just finished a gubernatorial campaign, a state-wide election 
in my State, and each candidate spent over $20 million. My 
colleague, Senator Allen, is raising a treasury to take on all 
comers in about the same amount.
    Also, the lobbying community. I don't know, Senator Levin, 
but my rough recollection is that there may have been 2,000 
individuals working as lobbyists about our starting time. Now, 
the number reaches about 35,000.
    But let me tell you what hasn't grown and what I find 
shocking. It is reported in this month's Washingtonian, a very 
good article about what is going right and what is going wrong 
in this city. Ninety-six percent of Americans don't contribute 
a penny to any politician. The politicians naturally respond to 
people who give them the money. That is something we have got 
to address. As Senator Voinovich pointed out, so much of our 
time now in the course of our annual reelection or election 
cycle is devoted to fundraising.
    But I don't think we can cast an indictiment against all 
the lobbyists that we have. I see in the audience Dick Clark 
representing the Aspen Institute. I have been on a number of 
those trips in years past. They were very beneficial, very 
educational, and constructive.
    I think this hearing has got to send a more balanced 
message than some of the indictments here earlier. The system 
is working. We are still the strongest government on the face 
of the earth, with a beacon of hope for so many others, but we 
can make it better. You said, bond of trust. Well, that 
statistic of 96 percent not even sending $5 or $10, that is an 
area which we have got to regain and broaden it so that the 
American people feel more a part of this institution.
    I thank the Chairman.
    Chairman Collins. Senator Domenici.

             OPENING STATEMENT OF SENATOR DOMENICI

    Senator Domenici. Madam Chairman, let me first say I don't 
come to every meeting. I think you understand that. But I think 
this is one of the most significant set of hearings and 
activities we are going to have, and I want you to know that, 
for better or for worse for you, I am going to be active 
because I think this is a very difficult subject and I don't 
think it is easy. There is not a simple answer, like more 
rules. It is a lot different than that.
    You know part of the problem is us; I won't go much beyond 
that, but the good Doctor mentioned it. I mean, we get hooked 
into this system, too. We don't make very many unilateral 
decisions that we don't like the system. We use it.
    Having said that, I just want to say that I don't know 
where the jurisdiction is going to lie for things like earmark 
and campaign reform, but whatever we do, I am not an advocate 
of having no earmarks, but I am an advocate for reforming the 
earmark process. The reason for that is, I don't think that 
``earmarks'' is very easy to define.
    I found a huge earmark in a tax bill that had to do with 
funding cancer centers in the States, Senator Durbin, and you 
would be amazed at how it is written, and nobody is thinking 
about that. They all think it is earmarks in appropriations 
bills, but that tax bill has $150 million going somewhere 
because of how they wrote it. Earmarks are everywhere. So that 
is part of what we do up here. I also think we have to tie 
together campaign reform and legislative reform and the rules 
with reference to ethics.
    I want to just make one comment since there is some 
leadership here of one party, and I think my party will be here 
hopefully. I really hope that when we say, let us make this 
bipartisan, and I am not saying this to one person, I am saying 
it to everybody, that we really understand what that means. 
That doesn't mean only that we work together, it means that we 
not blame each other and then say we aren't going to do reform 
because of others. I mean, you can make politics out of this, 
but you can't make it so political that you can't get a bill 
because you are fighting so much for political advantage. I 
hope that doesn't happen. It will be very hard this year to see 
that it doesn't happen, in my opinion.
    Now, I am going to give you six things. First, I think that 
you have to reform the fundraising activities, and I am crazy, 
but I think we ought to dramatically change from whence we get 
money, and I think we ought to, over a period of time, say we 
only get money from our home States. Just think about that. 
Some people say it is unconstitutional, but it would sure 
change things.
    Second, I believe we have to address the 527s, and if we 
don't address them, we have decided that we really didn't want 
McCain-Feingold because we let 527s take its place and do much 
of the same things. I don't know how the Senators that 
sponsored it feel.
    On lobbying reform, I agree with Senator Voinovich. First 
of all, we have to enforce the rules we have, and Madam 
Chairman, I would go with Senator Voinovich and tell him to 
have those hearings. I think you are going to find that we 
don't have the personnel or the equipment to enforce what we 
have, and there is just slipshodness all over the place. I 
think we should do that now so we know what we need before we 
write a bill.
    Disclosure, I think you all know that is important. There 
are existing disclosure rules. The problem is that since these 
are such big events and episodes, disclosure is taken for 
granted. It is not being done as it was expected from what my 
staff tells me. We have to make sure it is and find out why it 
hasn't been, in my opinion.
    I would suggest on earmarks that we ought to go to the 
appropriators and talk about the way it used to be, if there 
was a time in this Senate's history when we didn't have so many 
and the process was more open, and I would submit that we did 
have a time and it was effective, and essentially it is just a 
simple proposition of following the regular order on 
appropriations bills and then asking the House to be partners 
by not letting the Rules Committee change that so we have the 
same rules in each body. I am not going to go into detail, but 
if any of you want to know, ask somebody expert on 
appropriations about it. It is not so hard as one might think.
    Senator McCain, I know you want to go further with 
earmarks, and I laud you, but I think there is a way to have 
what you are talking about and everybody would know what each 
earmark is and you would have to vote on it before it became 
law or you couldn't put it in the bill. We have done that, 
around 1980 or thereabouts, under regular order.
    We have already got travel limitations. It is just that we 
have got to find out what we really want to do. I agree with my 
friend, Senator Warner. There is some travel that should be 
done aside from CODELs. We all know that. I haven't done much 
of it, but some people think it is good, and I am not going to 
argue with it.
    Now, obviously, those are just my thoughts. I thank you for 
what you are doing and urge that you go right on, and I assume 
you will be working in tandem with the Rules Committee because 
they have got some jurisdiction, right?
    Chairman Collins. Correct.
    Senator Domenici. I thank you much, and I look forward to 
proceeding.
    Chairman Collins. Thank you. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Madam Chairman. I just want to 
begin by expressing my appreciation to you and to our 
colleague, Senator Biden, for again swiftly taking the lead on 
what I think is an important issue that is facing our country. 
I am confident we can address these issues before us today in 
the same bipartisan way that we have addressed everything from 
intelligence reform to the ongoing investigation of what went 
wrong during Hurricane Katrina.
    Did I say Lieberman?
    Chairman Collins. You said Biden.
    Senator Lieberman. You said Biden, which is in your case--
--
    Senator Carper. Joe. I am for Joe. [Laughter.]
    When he was running for President in 2004, people would 
say, who are you for, Biden or Lieberman? I would say, I am for 
Joe. I am sorry, interchangeable parts.
    I am sure that most of us on this Committee have gone home 
and heard about how deeply disappointed people are with what 
they are seeing in Washington these days, and I think most 
people in my State realize that we are not all taking bribes 
and we are not all lobbyists or crooks, and I agree with them. 
I have met far more good people here than bad, and I am sure 
that is a sentiment that is shared by my colleagues.
    But like those who I have spoken to in recent months, the 
news of the Abramoff scandal has hit the papers and television 
news outside the Beltway. I am greatly disappointed that our 
system can allow such excesses and such disrespect for the 
people who they send here to work for them. The fact is that 
the American people have lost some of the trust that they place 
in their leaders and us here in Washington, and that is 
dangerous because, as we all know, a lot of people didn't have 
much trust in us to begin with.
    That is why I am proud to join a number of my colleagues in 
cosponsoring one bill, and that is S. 2180, the Honest 
Leadership and Open Government Act of 2006, that I believe 
takes a number of the bold steps, not all, but a number of the 
bold steps that are necessary to win back some of the trust 
that has been lost over the last several years.
    Among other things, this legislation tightens the 
disclosure requirements for registered lobbyists and makes it 
easier for the average American to know what the lobbying 
community is up to. It also makes clear that Senators and staff 
can no longer accept gifts, meals, and expensive trips from the 
individuals who lobby us. And perhaps most importantly, S. 2180 
strengthens enforcement of the rules governing members', staff, 
and lobbyists' behavior. One of the major weaknesses, though, 
in the current regime, I believe, is the lack of effective 
enforcement. I know addressing these issues will be a priority 
on both sides of the aisle in the coming weeks.
    In the meantime, however, I pledge to hold myself and my 
staff to a higher standard. We are no longer accepting meals, 
entertainment, or any other gifts from lobbyists. We have also 
decided not to participate in any official travel unless it is 
paid for by a government entity or a nonprofit organization. We 
plan to abide by these new rules regardless of what may happen 
with the various lobbying reform proposals out there.
    In closing, Madam Chairman and colleagues, let me just take 
a moment to say that I hope our examination of the rules 
governing our interactions with the lobbying community does not 
ignore the fact that many of us, including myself, are forced 
to spend entirely too much of our time attending fundraisers 
and soliciting campaign contributions, oftentimes from 
registered lobbyists.
    When I first ran for the Senate in 2000 while serving full-
time as Governor of Delaware, I spent a year of my life also 
traveling around the country, as I am sure many of you have, 
raising the money necessary to run, in our case, about a 
month's worth of television advertising on Philadelphia TV. In 
total, I think I spent more money winning this Senate seat than 
I did in all the rest of my 10 state-wide races for State 
Treasurer, for Congress, and two times for Governor. And today, 
about a year out from the 2006 elections, the fundraising work 
is starting up again. In fact, as we all know, it never really 
ends, and this just doesn't make any sense to me.
    I want to go back home to Delaware to tell people that my 
colleagues and I are going to do something to prevent a replay 
of the events we have seen in the news of late, and I think we 
will get that chance. I am afraid nobody will take me seriously 
unless we can also find some way to do something further about 
campaign spending and fundraising, as well.
    And as we consider these issues before us today, I just 
want to say I plan to work with my colleagues from both sides 
of the aisle to do something about the cost of Federal 
campaigns and the toll that it takes on our democracy. Our 
former colleague, Senator Fritz Hollings, had a proposal for a 
number of years that would allow limits on the amounts that a 
candidate can spend on his or her campaigns. There have been 
other proposals here and in a number of States to reduce 
campaign contributions from lobbyists with public financing. I 
think some combination of these proposals, perhaps coupled with 
some control on how much television stations can charge for 
political advertising, might be what it takes to free up more 
of our time to do what we were sent here to do, and that is to 
fully restore the trust in our government.
    Madam Chairman and my colleagues, thanks very much, and we 
look forward to hearing from our witnesses. Thank you.
    Chairman Collins. Senator Stevens.

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens. Madam Chairman, I congratulate you on 
holding this hearing so promptly. Recent events demonstrate the 
absolute need for action in this area.
    I was a member of the Conference Committee on the bill that 
was finally passed and signed into law that was declared 
unconstitutional in the case of Buckley v. Vallejo. I still 
feel that, ultimately, we may have to have a constitutional 
amendment, but I am pleased to work with you on legislation 
short of that. Thank you very much.
    Chairman Collins. Thank you.
    We now turn to our first panel today. I am very pleased to 
welcome five of our colleagues who have either already 
introduced legislation or who are about to introduce 
legislation addressing this issue. Each of them has worked very 
hard on this issue. We are going to start with an individual 
whose name is synonymous with reform, Senator John McCain.

TESTIMONY OF HON. JOHN McCAIN,\1\ A U.S. SENATOR FROM THE STATE 
                           OF ARIZONA

    Senator McCain. Thank you very much, Madam Chairman. I know 
you have a long list of witnesses and other panels, and I will 
try to be very brief. I want to thank you and Senator Lieberman 
for holding this important hearing, and I would like to start 
out with what I think is the most important aspect of this 
issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCain appears in the 
Appendix on page 55.
---------------------------------------------------------------------------
    We have bipartisan proposals. We have to sit down quickly 
in whatever format that our leaders decide and have bipartisan 
negotiations and come up with legislation or rules changes as 
quickly as possible, and we can do that at the end of the first 
recess, the beginning of May, if we sit down and address this 
in a bipartisan fashion. I know that Senator Lieberman is 
committed to that as well as many others.
    I would like to also point out that the urgency of this is 
dictated by the view of the American people as to how we do 
business here in Washington. It is not good, and we need to fix 
it, and we need to fix it very quickly.
    As you know, Madam Chairman and Members of the Committee, 
over the past year and a half, the Indian Affairs Committee has 
unearthed a story of excess and abuse by former lobbyists of 
some Indian tribes. The story is alarming in its depth and 
breadth of potential wrongdoing. It spanned across the United 
States, sweeping up tribes throughout the country. It has taken 
us from tribal reservations across America to luxury sports 
boxes here in town, from a sham international think tank in 
Rehoboth Beach, Delaware, to a sniper workshop in Israel and 
beyond. It involves tens of millions of dollars that we know 
about and likely more that we do not. Much of what the 
Committee learned was extraordinary, yet much of what we 
uncovered in the investigation was, unfortunately, the ordinary 
way of doing business in this town.
    How these lobbyists sought to influence policy and opinion 
makers is a case study in the ways lobbyists seek to curry 
favor with legislators and their aides. For example, they 
sought to ingratiate themselves with public servants with 
tickets to plush skyboxes at the MCI Center, FedEx Field, and 
Camden Yards for sports and entertainment events. They arranged 
extravagant getaways to tropical islands and famed golfing 
links of St. Andrews and elsewhere. They regularly treated 
people to meals and drinks. Fundraisers and contributions 
abounded.
    During its investigation, the Committee also learned about 
unscrupulous tactics employed to lobby members and to shape 
public opinion. We found a sham international think tank in 
Rehoboth Beach, Delaware, established in part to disguise the 
true identity of clients. We saw phony Christian grassroots 
organizations, consisting of a box of cell phones in a desk 
drawer.
    I would submit that in the great marketplace of ideas we 
call public discourse, truth is a premium that we can't 
sacrifice. Many cast blame only on the lobbying industry. We 
should not forget that we, as Members of Congress, owe it to 
the American people to conduct ourselves in ways that reinforce 
rather than diminish the public's faith and confidence in 
Congress.
    Madam Chairman, I would like for my complete statement to 
be a part of the record----
    Chairman Collins. Without objection.
    Senator McCain [continuing]. But I would again like to just 
briefly run over some salient parts of Senator Lieberman's and 
my proposal, and I would argue that these are not written in 
golden tablets. We are more than eager to accept additional 
changes, and we need to do that in a bipartisan fashion.
    This Act requires more frequent disclosures of lobbying 
activities, including grassroots lobbying campaigns and other 
contribution payments by lobbyists. It requires the information 
to be available online. It requires lobbyists to disclose their 
involvement in travel by members and staff. It requires 
lobbyists to report gifts to members and staff over $20 in 
value.
    It doubles the amount of time during which a former Member 
of Congress and their senior staff are restricted from 
lobbying. It clarifies that the revolving door laws apply to 
outside lobbyists retained by Indian tribes. It requires 
members to notify the Clerk of the House or Secretary of the 
Senate if they are negotiating employment which may create a 
conflict of interest.
    It requires members to pay the fair market value of charter 
flights for flights on private planes. It requires members to 
file reports of meetings, tours, events, or outings they have 
participated in while on official travel. It requires the 
Ethics Committee to develop guidelines on what is a reasonable 
expenditure on official travel, determine the face value of a 
ticket to a sporting event or entertainment. It is fair market 
value, in the case of tickets without face value, such as 
skybox tickets, the face value.
    I want to mention one other thing very quickly, which was 
brought up by Senator Domenici and others today. We are not 
going to fix this system until we fix the earmarks. In 1994, 
when the Congress was taken over by Republicans, there were 
4,000 earmarks on appropriations bills. Last year, there were 
15,000. It is disgraceful, this process. What we went through 
at the end of the last session with things like LIHEAP and 
appropriations larded onto the money that was supposed to be 
devoted to the men and women in the military and their ability 
to conduct the war on terror was disgraceful.
    We need to stop the earmarking, and we have specific 
proposals to curb these excesses, and if we don't stop the 
earmarking, we are not going to stop the abuses of power here 
in Washington because we have seen a specific case of one 
Congressman and one lobbyist who were able to put millions and 
millions of dollars of taxpayers' money into a defense 
appropriations bill somehow, without any oversight or any 
accountability, and we are going to see a lot more examples of 
that being uncovered in the weeks and months ahead.
    I thank you, Madam Chairman. I thank Senator Lieberman and 
other Members of the Committee. I believe we know what we need 
to do. I know we need to do it in a bipartisan fashion and we 
need to do it quickly, and I thank my colleagues for their 
involvement in this issue from both sides of the aisle, and I 
appreciate their dedication to this effort, including my 
special partner in crime, Senator Feingold. Thank you very 
much.
    Chairman Collins. Thank you. I would invite Members, 
referring to Senators who are witnesses here, after you have 
given your statement, to feel free if due to other scheduling 
conflicts you need to leave immediately. We certainly 
understand that.
    It is a great pleasure to invite to the Committee today 
Senator Russ Feingold. It is my understanding that Senator 
Feingold is deferring to Senator Durbin first because of 
scheduling constraints that Senator Durbin has. Is that 
accurate?
    Senator Feingold. Absolutely.
    Chairman Collins. Senator Durbin, it is great to welcome 
you back to this Committee on which you served for many years 
until I became Chairman, in which case you then left 
immediately---- [Laughter.]
    But it is nice--I know it is not true, I was just teasing 
you. It is great to have you back. We have worked together on a 
great many issues.

TESTIMONY OF HON. RICHARD J. DURBIN,\1\ A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Thank you, Madam Chairman, and I was 
honored to work with you, and as I have said to you and Senator 
Lieberman, I think your seminal work on intelligence reform 
reflected the very best of Congress working on a bipartisan 
basis. I was happy to be part of that enterprise, glad that it 
resulted in something that made America safer, and as I said to 
you many times, the reason I ran for the U.S. Senate was to be 
part of that, and I salute both of you for your leadership in 
that important issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Durbin appears in the 
Appendix on page 57.
---------------------------------------------------------------------------
    Now, you are tackling another big one, the question of 
reform in Washington. It will be just as contentious, if not 
more so, and I think you two are up to the job. I am honored to 
be here today in the Governmental Affairs Committee to say a 
few words about it.
    Let me say at the outset, neither political party has a 
monopoly on virtue. The vast majority of Members of Congress 
that I have worked with in the House and the Senate are hard 
working, honest, ethical people. And let me add, too, most of 
those who lobby us on Capitol Hill are also honest and 
dedicated to following the rules. I am going to use a few 
examples in my comments here that focus on Jack Abramoff and 
the now notorious K Street Project, but I want to say at the 
outset, I think many Republicans in Congress detest dishonest 
enterprises as much as any Democrats. Let us put that on the 
table to start the conversation.
    The outrageous conduct of the lobbyist Jack Abramoff and 
his like has gone beyond embarrassment. It has had real world 
consequences for Americans. The same hand that is writing the 
check is also writing the laws, and I will give you an example 
or two as we go on as to how Americans have paid the price for 
it.
    My first job on Capitol Hill was as a college student, and 
I worked as an intern for a man named Senator Paul Douglas of 
Illinois, the first Chairman of the Senate Ethics Committee. He 
is my all-time hero in public life. Here is what he said in one 
of his books. ``When I asked a policeman,'' he said, ``how some 
of his colleagues got started on the downward path, he replied, 
`It generally began with a cigar.' '' Whether the culture of 
corruption in Washington begins with a cigar or a skybox seat 
or a golfing excursion to Scotland or a special interest ploy 
to affect legislation, it is just unacceptable and it has to 
stop.
    The legislative problems we face are relatively 
straightforward, and we have it within our power to make 
necessary changes. I am here to speak on behalf of the 
Democratic Caucus bill, the Honest Leadership and Open 
Government Act, S. 2180, introduced last Friday with 34 
original cosponsors. I want to acknowledge Senators Feingold, 
Levin, and Lieberman for their input in drafting the bill and 
their continued work.
    The bill is grounded on five core principles: Closing the 
revolving door; ensuring full disclosure of lobbying 
activities; eliminating excessive gifts and travel from private 
sources; strengthening enforcement of lobbying and ethics 
rules; and insisting that lawmaking be an open and transparent 
process.
    Given the present state of affairs in Washington, we 
believe we must establish new and clear lines between those who 
lobby and those who serve the public to avoid the appearance of 
conflict. Our bill prohibits receipt of meals and gifts from 
lobbyists and bans acceptance of free travel from companies, 
associations, and groups who advocate before Congress. Our bill 
also dramatically increases the transparency of activities in 
the lobbying community. Let me give you just a few general 
specifics.
    First, to close the revolving door, we double the length of 
time to 2 years that members, senior Congressional staff, and 
senior Executive Branch officials are barred from lobbying 
their former offices. Let me give you a specific example. There 
isn't a single one of us back in our home States now that 
aren't hearing from senior citizens about the Medicare 
prescription drug Part D bill, how complicated it is, how 
unfair it is, and they ask us, couldn't you have done a better 
job? Couldn't you have made this simpler, easier to understand? 
What went wrong? Well, take a look at the history of this bill, 
and you will find one of the leading members of the House 
pushing for this bill that I think benefited the pharmaceutical 
companies far more than it should have. Then he went to work 
for them, a $2 million a year job representing a pharmaceutical 
association.
    He was not alone. Within the Administration and on Capitol 
Hill, about a dozen others who were involved in writing that 
terrible bill to give benefits to pharmaceutical companies 
ended up on the payroll within a matter of months. This bill 
has brought great fortunes to these pharmaceutical giants. It 
brings tears to the eyes of many senior citizens across the 
United States, and that has to end.
    Second, we need to strengthen the laws on public 
disclosure. Our bill will require lobbyists to file reports 
quarterly, electronically, instead of semi-annually on paper, 
and disclose more detailed information about their campaign 
activity. I would like to address that in a few moments. It 
will require disclosure of hired gun efforts to stimulate 
grassroots lobbying. The Michael Scanlon-Ralph Reed scheme to 
use Abramoff's tribal clients to contact Christian Coalition 
members to stir up opposition to a gambling bill was appalling, 
and our bill would force disclosure of this type of scheme.
    We also need to deal with the problems of gifts and 
privately financed travel. We need to strengthen the 
enforcement of lobbying and ethics rules. And finally, we need 
to make the legislative process more open and accountable. Now, 
we have specific proposals in that regard which are included in 
the bill and will be included in my final statement here.
    I might say to Senator McCain and to others who brought up 
the issue of earmarks, I have been a member of the 
Appropriations Committee both in the House and the Senate. Yes, 
there are a lot of earmarks in those bills. I am for more 
transparency. I think I should be held accountable publicly for 
every earmark that I put in a bill for my State of Illinois or 
for anyone else, and there ought to be time between the writing 
of that bill and the passage of that bill so that we can really 
take a close look at what is included there.
    But it is naive to believe that earmarking starts and ends 
in the Appropriations Committee. Take a look at many of the 
other bills that we have considered. Twenty-two-billion dollar 
favors for Medicare providers in the budget bill. Billions of 
dollars in oil and gas subsidies in the energy bill. Billions 
of dollars for the pharmaceutical industries in the Medicare 
prescription drug bill. Billions of dollars for financial and 
credit institutions in the bankruptcy bill. Every bill we 
consider has someone on K Street with a smile on their face. It 
isn't just the appropriations bill. So we have got to talk 
about the whole process and how we approach it.
    The last point I will make is this. Several members on both 
sides--I heard Senator Voinovich as I walked in the room, and 
others have said, getting to the heart of this means getting to 
the heart of how we finance our political campaigns. Unless and 
until we address this in an honest fashion, we are carping on 
trifles here. Why is it that we warm up to all these lobbyists? 
It isn't for a meal at night. Heck, at night, I want to sit 
down, put my feet up, and watch TV. I don't want to go out to 
some restaurant. Most of us are pretty tired at the end of the 
day. But we know when it comes time to finance our campaigns, 
we are going to be knocking on those same doors.
    Unless and until we stop the outrageous expense of 
political campaigning in America, we are going to continue to 
be beholden to those who are well off and well connected. If 
you are a self-funder, as they call it in our business, a 
multi-millionaire, that is one thing. But if you are in my 
category of mere mortals, you have got to spend a lot of time 
on the phone begging for money in the hopes that you can run in 
a State as large as Illinois when the time comes.
    We need to do two things. First, we need to address the 
fact that we are creating trust funds for television stations 
with our fundraising. We are raising money to pay these 
television stations millions and millions of dollars each time. 
It is time that we have time available at an affordable rate 
for challengers and incumbents.
    And finally, we need to move to public financing, and for 
those who say we cannot afford public financing, it is way too 
expensive, if we cut earmarks in half, we would have more than 
enough money to finance public financing of campaigns.
    So I hope that we will look at the whole picture. It is a 
big challenge. But if we just take one discrete part of it, 
slap ourselves on the back and say, we have done a fine job, I 
am certain that we will not be satisfied at the end that we 
have met our responsibility.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Feingold.

TESTIMONY OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you, Chairman Collins, Senator 
Lieberman. Thank you for the invitation to testify today on 
this very important topic. We are truly at a watershed moment 
for the Congress, and I am pleased that the Committee is 
preparing to act quickly.
    There are few higher priorities than improving our ethical 
standards and addressing the influence of special interests on 
legislation. That is because the fairness of the legislative 
process has an impact both on policy outcomes and also on the 
confidence that the public has in those outcomes.
    Now, as Senator Levin indicated, the Lobby Disclosure Act 
and also the changes to the gift rules we enacted in 1995 made 
a difference. So did the McCain-Feingold bill passed in 2002, 
which ended the practice of Members of Congress asking 
corporate heads of companies for hundreds of thousands of 
dollars in soft money. I want to, of course, acknowledge the 
role of the Chairman, the Ranking Member, and, of course, 
Senator Levin, who were absolutely central to that successful 
effort, along with my friend, of course, Senator John McCain 
and others.
    But the Abramoff scandal has pulled back the curtain on the 
influence peddling that goes on here, which we must now address 
decisively or risk losing the benefits of our earlier efforts. 
There are obviously many components to this problem and many 
possible solutions.
    But the first point I want to emphasize today is that this 
Committee should resist the temptation to let opponents of 
reform change the subject. By all means, consider all proposals 
that will have an impact on the problem, but don't let side 
issues take your attention away from abuses that need to be 
stopped. Whenever someone disparages basic reforms of the gift 
and travel rules by saying, yes, but what Congress really needs 
to do is X, be a little bit skeptical.
    As an example, I will take a back seat to no one in the 
Senate, except perhaps this guy sitting next to me, John 
McCain, in my opposition to earmarks and unnecessary spending. 
I strongly support changing the rules of the Senate to prevent 
earmarks and the encouragement they give to some of the seamier 
lobbying practices we have seen. But the key here is that this 
should not be an either/or proposition. Don't let anyone tell 
you that if you deal with the earmarks, you can let those other 
practices continue. I don't believe that.
    Similarly, don't believe it when people say that further 
gift and travel restrictions won't make any difference. If 
those restrictions are clear enough and tough enough, they will 
make some difference. Free meals, free tickets, fact-finding 
trips to warm, far-away places during Congressional recesses, 
these are a big part of the lobbying game at both the Senator 
and the staff level, and it is time for them to stop.
    My second general point, to echo a point that Senator 
McCain made, is that in the end, this lobbying and ethics 
reform effort must be bipartisan to succeed. It is not 
surprising that there are political calculations involved in 
addressing this issue, and the political situation has made 
real reform much more likely than it seemed when I introduced 
my original bill in July 2005. But given the rules of the 
Senate and the difficulties of navigating the legislative 
process in a short time, politics could also cause this effort 
to stall if we aren't careful, and that is where this 
Committee, working together, can have a very positive effect, 
and you have already started today by bringing this bipartisan 
group together, Madam Chairman.
    But working together on a bipartisan bill does not mean 
being timid. It does not mean Democrats and Republicans should 
come together to protect the status quo or find the lowest 
common denominator. Now is the time for bold and decisive 
action, not weak knees.
    With that in mind, let me very briefly outline what in my 
view are the key elements of a meaningful and credible reform 
bill. First, a real lobbyist gift ban. Reasonable exceptions 
for family, friends, and items like t-shirts or baseball caps 
are fine. But the ban has to be comprehensive. It has to 
include not just lobbyists, but those who employ them. We have 
seen how the current $50 limit has been abused. Those abuses 
will continue unless we mean what we say and make the ban very 
tight.
    If that seems too complicated, then just do what we do in 
Wisconsin. We have been doing it for 30 years, where the State 
legislature simply said, no gifts, period. That is the rule I 
have always followed in my office here for 13 years. It is a 
simple rule. It is easy to follow. It is easy to apply. It 
doesn't mean you can't have a meal with a lobbyist or a 
constituent if that is what you want to do. You just have to 
pay your share of the check.
    Second, address privately funded travel. I know that some 
fact-finding trips really are helpful to Senators and staff to 
learn about the issues we face firsthand. But I think it is now 
abundantly clear that the exception to the current gift rules 
for these trips has been abused. It can't be fixed, in my view, 
just by disclosure, and I am aware of the arguments for 
reasonable exception for charitable, educational organizations 
not involved in lobbying, but we need to make sure that any 
such exception does not itself become subject to abuse.
    Third, and this is the issue that Senator McCain and I 
first worked on together in the early 1990s, slow the revolving 
door. Increasing the cooling off period from one to 2 years is 
the least we should do. But I also think we should take a close 
look at that cooling off period and assess whether it really 
means anything if people can leave Congress and run the 
lobbying show at influential trade associations or law firms 
for a year or two from behind the scenes. When that happens, 
isn't the so-called cooling off period really just a warming up 
period? If we are serious about reducing undue influence, we 
should have revolving door laws that really mean something.
    Fourth, end reliance on these corporate jets. If Senators 
want to travel on what amounts to chartered flights, they 
should pay the charter rate. We need to make sure to make that 
clear for both official and campaign use of corporate jets 
because one thing is clear--the lobbyist for the company that 
provides the jet is going to be on the flight, whether it is 
taking you to see a plant back home or a fundraiser for your 
campaign.
    Finally, let us improve lobbying disclosure. Here, I think, 
there is general agreement on many provisions to improve the 
Lobbying Disclosure Act, but I think the Committee should take 
a very close look at Senator McCain's provision and other 
proposals to expand a disclosure of the campaign fundraising 
activities of lobbyists. The Abramoff scandal is not just about 
gifts and trips. It is also about the targeted use of campaign 
contributions. Lobbyists play a huge role in the financing of 
campaigns. Detailed disclosure of that role will help the 
public understand how the lobbying game is played and provide a 
record on which more substantive reforms can be based.
    Madam Chairman, we have an opportunity to make history in 
the next few months. I hope this Committee will lead the way in 
fixing the problems the Abramoff scandal has exposed. The 
public is watching and challenging us to be bold. We must not 
blink. I look forward to working with you and Senator Lieberman 
and the entire Committee to develop the strongest possible 
lobbying and ethics reform package. Thank you very much for 
allowing me to testify today.
    Chairman Collins. Thank you for your very specific 
suggestions to the Committee. I very much appreciate your work 
in this area.
    Senator Santorum, it is a great pleasure to welcome you 
here today. I know you have a long history of working on reform 
efforts as a Member of the House of Representatives and that 
you have been tapped by the Majority Leader to develop 
legislation. Please proceed.

  TESTIMONY OF HON. RICK SANTORUM,\1\ A U.S. SENATOR FROM THE 
                     STATE OF PENNSYLVANIA

    Senator Santorum. Thank you, Senator Collins and Senator 
Lieberman. Thank you both very much for holding this hearing 
and for your leadership.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Santorum appears in the 
Appendix on page 61.
---------------------------------------------------------------------------
    I just want to comment on a couple of things that have been 
said by the prior speakers, and that is that, first and 
foremost, this needs to be a cooperative and bipartisan effort. 
I am looking forward to working primarily from the bipartisan 
effort of Senator Lieberman and Senator McCain as really the 
structure and the foundation of this package. When I hear 
Senator Feingold and when I hear certainly most of the comments 
from Senator Durbin, all of the comments with respect to 
ethics, I think that there is a tremendous amount of 
commonality here. I don't think we are talking about going in 
opposite directions. I think we very much are on the same page 
and it is a matter of working through the details in most of 
the areas, and I will outline some of the areas of concern, but 
they are identical to the areas of concern that have been 
outlined by other speakers.
    Madam Chairman, as you have said, this is a task that I was 
asked to do by Senator Frist as a member of the leadership, and 
I have a long history of being involved in Congressional reform 
from my days in the House in the ``Gang of Seven'' where we 
were uncovering bouncing of checks by House members and using 
taxpayers' dollars to cover those checks as well as a House 
Post Office scandal, where there were convictions. There was 
drug dealing going on down there. There was the cash-for-stamps 
scandal. All of that, I stood on the floor with a group of 
colleagues and pointed the finger at both sides of the aisle, 
candidly and unfortunately, and took a lot of heat for that, 
but I was trying to be responsive to a problem that we saw. I 
think we are in some respects back in the same position.
    I didn't stop when I came to the Senate. I was involved in 
my party in reforming the Committee Chairmanships, putting term 
limits on Chairmen, putting term limits on leadership. Those of 
you who frequent the Senate restaurant and barber shops know 
that they are no longer taxpayer subsidized. When I got on the 
Rules Committee, that was my high priority, to end taxpayer 
subsidy. Yes, we pay higher amounts for our food and we pay 
higher amounts for our barber shop, but those are no longer 
subsidized by the taxpayer, and they aren't necessarily the 
most popular things to do when you are talking to your 
colleagues.
    I know this is an important issue. We have to address the 
perception that is out there increasingly that Members of 
Congress are unduly influenced by what goes on in this town and 
lobbyists and we need to look at a variety of different things. 
We can look at gifts, we can look at meals, we can look at 
travel. I can tell you that I, personally, am at the bottom of 
member travel. I don't do third-party travel to speak of. I 
know members wine and dine with lobbyists. The only whining I 
get in the evening is from my children. That is how I decide to 
do business here.
    So I come at this with a strong penchant to make sure that 
we have a very strong bill and that we have one that is worked 
and vetted thoroughly by members on both sides of the aisle. 
There are good ideas on both sides, and we will work, as I 
said, with the McCain-Lieberman bill as the basis of that.
    We need to look at privately funded Congressional travel, 
gifts, meals, the revolving door of access of members and staff 
and spouses of members and their access to members and the 
members' offices and to the floor of the U.S. Senate. We have 
to look at earmarks. I think that Senator McCain is absolutely 
right, and I agree with Senator Feingold. We can't look at one 
or the other, we have to look at both, and I think both are 
important things to have in the legislation.
    I also agree that we need to look at the 527 organizations 
as another problem. In addition to all of the transparency 
issues that are outlined in the McCain-Lieberman bill as well 
as by Senator Feingold, transparency is who is giving to 
grassroots lobbying organizations or shadow organizations that 
lobby Congress. We need to do the same thing with respect to 
those who participate in elections.
    We also, and this is something that has not been mentioned, 
but I think this Committee should look to encouraging the 
lobbying community and setting parameters for the lobbying 
community to set up self-regulatory organizations. I think it 
is vitally important, if we are going to establish a level of 
professionalism and standards, that the industry itself begin 
to look at doing that and having some sort of self-regulatory 
body to get into the details of the profession more than, say, 
we could here in our particular bills.
    I just want to say that while I take this issue very 
seriously and I think we need to aggressively pursue all of 
these areas that I have outlined, I think we also have to take 
into account that the citizens of this country have a right to 
petition their government and have access to us regardless of 
their income or their affiliation, regardless of their campaign 
contributions. They should be able to come and petition their 
government. We have to make sure that, yes, there are lobbyists 
for big corporations and very wealthy interests. There are also 
lobbyists for the Boys and Girls Clubs and for the Salvation 
Army and for small farmers. We have to assure that when we set 
up these regulations, we are not limiting their access to plead 
their case to the Members of Congress who affect so 
dramatically in many cases their lives.
    I feel very strongly. I have an open door policy in my 
office. If a constituent of mine wants to meet with me or 
someone in my office, we meet with every single one. We turn 
absolutely nobody down. That is important. I think that is a 
standard that every Senator has, and maybe every Senator does 
that, but that is a standard that I think we should hold 
ourselves to, that you don't have to pay to play to get into a 
Senator's office. The fact that you are a constituent or you 
represent a constituent interest is enough to get you into the 
office of every member of the U.S. Senate. It is important that 
people have a right in the big and powerful government which we 
have become to be able to have their grievances addressed here 
on Capitol Hill.
    We are very early in this stage here, but I think that 
there is a great common ground for us to build upon, and I am 
encouraged by that. I hope that we can build a bipartisan 
consensus. I hope that there is a willingness by all of the 
panelists here to work together, to pull together the best of 
the ideas, work out the details, make sure that we are 
conscious of both the need for transparency and reform and also 
the need to make sure that this government is responsive and 
accessible to our constituents' needs.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you.
    Senator Coleman, you have been the most patient member this 
morning, waiting to testify. You are also a very active, in 
fact, one of the most active Members of this Committee, and we 
welcome your testimony this morning.

 TESTIMONY OF HON. NORM COLEMAN, A U.S. SENATOR FROM THE STATE 
                          OF MINNESOTA

    Senator Coleman. Thank you, Madam Chairman. As soon as I am 
done with my testimony, I look forward to taking my seat and 
then listening to the other testimony.
    Before I begin with my comments, I would ask that the 
comments of Senator Nelson of Nebraska, who is a coauthor of my 
bill, be entered into the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Nelson appears in the 
Appendix on page 110.
---------------------------------------------------------------------------
    Chairman Collins. Without objection.
    Senator Coleman. Madam Chairman, I want to start by 
thanking my Chairman, Senator Collins, and the Ranking Member 
for the speed at which you have moved in putting this issue on 
the table. I think effort that in and of itself has done a lot 
to restore confidence in this institution.
    I share Senator Domenici's reflection of the importance and 
significance of this issue. We know from the Declaration of 
Independence, our government derives its just powers from the 
consent of the governed, and the reality is what has happened 
with the doubts about transparency and honesty, concerns about 
allegations and admissions of guilt in the abuse of power and 
influence peddling, has shaken the confidence of the American 
public in government, and we have to take that seriously.
    I think we need to do more than just bring the guilty to 
justice. We have to look at the institution. We have to say we 
are committed to reform. And what is at stake here is clearly 
the credibility of the institution, and credibility is the 
foundation upon which the institution is built, and without it, 
we do not have legitimacy to govern effectively and to serve 
the people that elected us.
    There are already a number of worthwhile ideas on the 
table. I am a coauthor and support the legislation of the 
Ranking Member and Senator McCain. I also believe, by the way, 
that transparency must be kind of a central theme to reform. In 
Minnesota today, you can go on my website--from anywhere, and 
all my travel is listed and descriptions of the organizations 
that funded the travel is there. So I think transparency is 
kind of a central theme here in restoring public trust.
    And while I support the adoption of a number of the 
measures that are on the table and the transparency, I believe, 
though, that we need to take careful stock of what kind of 
reforms we are proposing, look at the short-term effects, and 
also be willing to look at this in a long-term perspective and 
the effects that they will have. Change for change's sake is 
not the answer, and policy by press release and one-upsmanship 
and who is going to be tougher than the other on this issue is 
not the way to reform this incredible institution, this 
greatest deliberative body in the world.
    These are, as I would say to the good Doctor over there who 
would understand, essential and vital organs of government, and 
so we need to operate with both skill and speed as we work to 
improve their function.
    In the final analysis, it is not about representative 
government. It is not about our inability to look at ourselves 
with the proposal that I have or questioning whether we can 
bring independent judgment. I really think that the question 
before us and before the public is about Congress taking a look 
in the mirror, and I believe that a thoughtful and 
comprehensive reform agenda can only be achieved by a group of 
respected individuals from outside the institution conducting a 
thorough and bipartisan review and then offering constructive 
recommendations to the House and Senate.
    Churchill once admonished military commanders that they 
faced two potential dangers: Inaction because they were timid 
or over-commitment because they were rash. Senator Warner knows 
that quote.
    That is why Senator Nelson of Nebraska and I, along with 
Senator Allen, are introducing legislation today that creates a 
bipartisan Commission to Strengthen Confidence in Congress. The 
commission will operate outside the institutions of Congress to 
review ideas and to recommend reforms to strengthen the ethics, 
disclosure, and transparency requirements governing the 
relationships between Members of Congress and lobbyists. It 
will be modeled after initiatives like the 9/11 Commission and 
the Grace Commission and premised in the belief that we have a 
responsibility to preserve the confidence of the American 
public. I believe the commission will stimulate a thoughtful 
national dialogue on reform and also provide a bully pulpit if 
the commission is to hold us in Congress accountable for 
implementing the reforms they prescribe.
    Specifically, the commission will be strongly bipartisan, 
which I think is essential, composed of an equal number of 
Democrats and Republicans. Leadership in the House and Senate 
from both parties will come together. They will pick the 
chairman. They will pick the vice chairman. They will then pick 
the members. They will be involved in the selection process. 
The commissioners themselves will be a combination of former 
members because I think it is important to get folks involved 
in the process who have been a part of it and understand this 
institution. But at the same time, you can bring in others, 
academics, historians, and other experts to add their voice to 
this deliberative process.
    The commission will issue its first report by July 1, 2006. 
I think they can do it that quickly and still do it with the 
deliberation that needs to take place. They will be given the 
ability to hold hearings in order to carry out their duties.
    And I believe in the end, the commission will be able to 
provide to us, to the Senate and to the Congress--and by the 
way, examining the things that are on the table, the gifts, the 
earmarks, the disclosure, the revolving door, and the travel. 
But I think they can do it in a way that will help reinvigorate 
and transform the world's leading governmental institutions.
    On the issue of the sensitivity and importance, Senator 
Nelson of Nebraska and I believe that the greater the stature, 
the independence, and legitimacy of the commission, the more 
far-reaching its recommendations can be.
    This legislation is designed to take the partisanship and 
the politics out of this process, and I fear that we are seeing 
a little of that, maybe more than a little of that. Sometimes I 
look at press releases, they look like they are coming out of 
the political offices of our respective parties, and I think we 
can do better than that. And again, many have ideas that are on 
the table. But I think this independent look will certainly 
help that process.
    I think in the end, if we bring together bipartisan, 
independent, and wise leaders and strike a proper balance, that 
will both restore confidence and preserve the best of how the 
Legislative Branch operates today. With the creation of the 
Commission to Strengthen Confidence in Congress, we can seize 
what many have called, and I believe this is, a historic 
opportunity to position the U.S. Congress to operate more 
effectively, transparently, confidently, and with the trust and 
the faith of the American people as we enter into a new 
century.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Coleman follows:]

                 PREPARED STATEMENT OF SENATOR COLEMAN

    I want to begin by thanking Chairman Collins and Senator Lieberman 
for your leadership on a range of issues. None is more important than 
the topic we address today.
    We know from our Declaration of Independence that our government 
derives its ``just Powers from the consent of the governed.'' That's 
why we need to take public doubts about the transparency of government 
and their leaders' honesty and integrity extremely seriously.
    Recent allegations, and admissions of guilt in the abuse of power, 
corruption of public office and the disregard for rules and laws of 
Congress and our nation, have shaken the confidence of the American 
people in its institutions of government. We need to do more than bring 
the guilty to justice: We need to reform the system that bred the 
corruption. Let's be clear that what is at stake here is the future and 
credibility of this institution. Credibility is the foundation upon 
which this institution was built and without it we do not have the 
legitimacy to effectively govern and serve the people that elected us.
    A number of worthwhile ideas are already on the table. I support 
the bill authored by Ranking Member Lieberman and Senator McCain. I 
also believe a central theme of reform must be transparency, so the 
American people can get a complete picture of how we get the 
information that helps us do our jobs. I have already acted on this so 
that any Minnesotan can now go onto my website and access my complete 
Senate travel records. I strongly believe there will not be restoration 
of public trust in government if they believe we have something to 
hide.
    While I support the adoption of immediate measures to improve 
transparency, we still need to take careful stock of what kind of 
reforms we are proposing and what kind of short term and long term 
effects they will have. Change for change's sake is not the answer. 
Policy by press release and one-ups-man-ship will not bring about what 
we need which is real, just and workable change. These are sensitive 
and vital organs of government we are operating on, so we need both 
skill and speed as we work to improve their function.
    In the final analysis, this is not about representative government 
looking at a policy and questioning whether we can bring independent 
judgment. This is about Congress taking a good hard look in the 
mirror--and I believe that a thoughtful and comprehensive reform agenda 
can only be developed by a group of respected individuals from outside 
the institution conducting a thorough and bipartisan review and 
offering constructive recommendations to the House and Senate.
    Churchill once admonished military commanders that they faced two 
potential dangers: Inaction because they were timid or over-commitment 
because they were rash.
    That is why Senator Nelson and I, along with Senator Allard are 
introducing legislation today that creates a bipartisan Commission to 
Strengthen Confidence in Congress.
    The Commission will operate outside of the institutions of Congress 
to review ideas and to recommend reforms to strengthen the ethics, 
disclosure and transparency requirements governing the relationship 
between Members of Congress and lobbyists. It will be modeled on 
initiatives like the 9/11 Commission and the Grace Commission, and 
premised in the belief that we have a responsibility to preserve the 
confidence of the American people. The Commission will stimulate a 
thoughtful national dialogue on reform and also provide a ``bully 
pulpit'' for Commissioners to hold us in Congress accountable for 
implementing the reforms they prescribe.
    Specifically, the Commission will be strongly bipartisan consisting 
of an equal number of Republicans and Democrats, none of whom may be 
sitting members of Congress. The House and Senate Leadership from both 
parties will come together and pick a chairman and vice chairman. 
Senate Republican leadership, Senate Democratic leadership, House 
Republican leadership and House Democratic leadership will also be 
involved in the selection process. The Commissioners will be a 
combination of former members of Congress and other independent voices, 
including: Academics, historians, public relations executives, and 
other experts.
    The Commission will issue its first report containing findings, 
conclusions and recommendations for corrective measure on July 1, 2006, 
with annual reports thereafter. Commissioners will also be given the 
ability to hold hearings in order to carry out their duties.
    This Commission will be able to provide a roadmap for the U.S. 
Senate and House of Representatives by examining how we handle things 
such as gifts, disclosure, earmarks and travel in a way which will help 
renew and reinvigorate the world's leading governmental institution.
    On issues of this sensitivity and importance, Sen. Nelson and I 
believe that the greater the stature, INDEPENDENCE and legitimacy of 
the Commission, the more far-reaching its recommendations can be.
    This legislation is designed to take the politics and partisanship 
out of the debate and put the issue in the hands of bipartisan, 
independent and wise leaders who can strike a proper balance that will 
both restore confidence and preserve the best of how the legislative 
branch operates today.
    With the creation of the Commission to Strengthen Confidence in 
Congress, we can seize the historic opportunity to position the United 
States Congress to govern more effectively, transparently, confidently, 
and with the trust and faith of the American people well into the new 
Century.

    Chairman Collins. Thank you very much for your testimony 
and for alerting us to the legislation that you will be 
introducing later today.
    I would now like to welcome our second panel of witnesses. 
Former Senator Dick Clark currently serves as Vice President of 
the Aspen Institute. Mr. Clark founded the Aspen Institute's 
Congressional program in 1983 to provide nonpartisan 
educational programs for Members of Congress on public policy 
issues.
    Former Governor John Engler serves as President and Chief 
Executive Officer of the Nation's largest industrial trade 
association, the National Association of Manufacturers.
    Bill Samuel is Director for Legislation for the AFL-CIO, 
which represents more than 9 million working men and women.
    I guess we are missing Governor Engler at this moment, but 
we will proceed. Thank you all for appearing before the 
Committee today. I look forward to your testimony, and we are 
going to start with you, Senator Clark.

  TESTIMONY OF HON. DICK CLARK,\1\ DIRECTOR, ASPEN INSTITUTE 
                     CONGRESSIONAL PROGRAM

    Mr. Clark. Thank you very much, Madam Chairman and Members 
of the Committee. I appreciate the opportunity to participate 
in this hearing, and I want to say at the outset that I 
strongly support the efforts of the Committee and other Members 
of Congress to reform the rules on Congressional travel. It is 
critical that public trust be restored in the institution.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Clark appears in the Appendix on 
page 64.
---------------------------------------------------------------------------
    As Director of the Aspen Institute Congressional Program, a 
leading sponsor of educational seminars for Members of the 
Senate and the House, I will limit my remarks to the area of 
Congressional travel. I would recommend the following reforms.
    One, funds should not be accepted from registered lobbyists 
or from groups that employ registered lobbyists.
    Two, travel should not include, in any way, shape, or form, 
the participation of lobbyists.
    Three, sponsoring organizations should be required to 
disclose their funding sources in their invitations to Members 
of Congress.
    And four, in particular, enforcement mechanisms must be put 
in place.
    However, a total ban on privately funded travel would be a 
disservice to the Members of Congress, denying them valuable 
resources to gain greater knowledge and understanding of a 
range of issues that they necessarily have to address.
    As a former member of the Senate Foreign Relations 
Committee, coming from a background as a professor of 
international relations, I experienced the wide gap between the 
average legislator's understanding of complex foreign policy 
issues on the one hand and the expertise that exists in the 
academic community. I saw firsthand the necessity to bring 
foreign policy scholars together with those who make policy.
    And since I established the Congressional Program in 1983, 
as you have said, funding has come solely from established 
independent foundations, such as Ford, MacArthur, Carnegie, and 
Kellogg. We accept no support from lobbyists, from governments, 
from corporations, from private individuals, or from special 
interests, and honoraria are not paid to Members of Congress or 
scholars. Lobbyists are not permitted at our meetings and are 
not involved in the program in any way. The program does not 
pay for any recreational activities, nor has it for 23 years.
    Nearly 200 governmental leaders, including heads of State, 
and approximately 800 scholars have participated. Seminar 
discussions revolve around four to eight scholarly papers 
commissioned for each meeting, which ensures a diversity of 
opinion based on the scholars' research. These, in essence, are 
graduate seminars.
    Participants are required to attend all conference events, 
which last at least 6 hours a day over the course of 4 days 
during a Congressional recess. These include roundtable 
discussions, luncheon speeches with question and answer 
periods, and dinners with assigned seating that expose members 
to various scholars and a range of views. Published reports of 
the seminars are sent to all Members of Congress, and the 
agendas and scholars' papers are widely disseminated on our 
website.
    A very important supplement to our policy seminars is a 
series of breakfast meetings conducted in the Capitol building 
for Members of Congress. Twenty-five breakfasts are held 
annually, providing members with ongoing, direct access to 
internationally recognized experts and analysts on these 
topics.
    Members tell us that the exceptional benefit of the program 
is that it provides a ``faculty'' of scholars and experts whom 
they can call on later for testimony and advice.
    The Congressional Program is a bicameral, nonpartisan, 
neutral convener. In the current political climate, Members of 
Congress need a safe haven where they can study critical issues 
in an academic, in-depth way with Members of both parties and 
both chambers. The program has been described by one Senator as 
``an oasis of civility,'' and it has been the genesis of major 
initiatives such as the Nunn-Lugar Cooperative Threat Reduction 
Act.
    We have taken steps to ensure that our educational mission 
is not compromised, including conferring with the Ethics 
Committees to make certain that we comply with their standards.
    Foreign travel is essential in an era of globalization. It 
is critical for Members to personally see developments on the 
ground in other countries, meeting with world leaders, 
academics, and others. Insularity is not an option for the 
world's only superpower. If our lawmakers are to be effective 
in addressing immigration or international trade, the war on 
terror, or other matters, an understanding of the peoples of 
the world is vital.
    And in closing, Madam Chairman, I want to mention Mickey 
Edwards, on my left, sitting behind me here. He is a former 
Republican Congressman from Oklahoma. He is Director of the 
Aspen Institute Rodel Fellowships in Public Leadership, and 
Mickey joins me in supporting these much-needed reforms. His 
program, by the way, brings together promising young political 
leaders at every level of government to explore the underlying 
values and principles of Western democracy.
    Madam Chairman, I thank you very much, and distinguished 
Members of the Committee, for this opportunity to discuss the 
subject, and I look forward to the questions.
    Chairman Collins. Thank you. Governor Engler.

TESTIMONY OF HON. JOHN ENGLER,\1\ PRESIDENT AND CHIEF EXECUTIVE 
         OFFICER, NATIONAL ASSOCIATION OF MANUFACTURERS

    Mr. Engler. Thank you, Madam Chairman. I apologize for my 
absence when we started. I was listening intently to Senator 
Coleman, and I thought I would take a quick break before this 
convened and didn't quite get back here in time, but thank you 
for the opportunity to be with you and this distinguished 
Committee today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Engler with attachments appears 
in the Appendix on page 67.
---------------------------------------------------------------------------
    I am President of the National Association of 
Manufacturers, a 501(c)(6) tax-exempt trade association. The 
NAM was formed in 1895, and for the past 110 years, we have 
played a unique role in promoting a strong manufacturing 
economy and economic growth, resulting in higher living 
standards for all Americans.
    The NAM represents more than 14 million workers in the 
manufacturing economy. Every day, the members of our 
association and our staff exercise the fundamental 
constitutional right to petition or contact our government and 
its elected leaders.
    In the simplest of terms, we lobby Congress and the 
Executive Branch to educate and inform about the impact of 
legislation, executive actions, and other public policy on the 
manufacturing economy of this country. And even though recent 
excesses and criminal activities by one lobbyist is fodder for 
the headlines, lobbying is not a new phenomenon. Given the 
workload Senator Clark just referred to of the 21st Century 
Congress, time doesn't allow our elected leaders to be 
completely familiar with the complexity and the nuance of every 
single issue that comes before them and the impact of every 
piece of legislation on real people in the real world.
    At the NAM, our objective is to educate Members of 
Congress, Senators, and their staffs through personal meetings, 
phone calls, via letters, faxes, e-mails from our members and 
our staff. We try to provide essential data, research, 
analysis; by travel outside of Washington to tour manufacturing 
facilities, and these are all pre-approved, actually, by the 
existing Ethics Committee process; by facilitating personal 
meetings and dialogue between legislators and our members in 
home States, back in the district. We do all of these things to 
inform.
    For the record, Madam Chairman, I would like to submit two 
examples of Congressional staff tours, one in the greater 
Atlanta area taken in January 2006 and the other one out in 
Arizona in, again, January of this year. So they are both 
current, but I think these agendas will show you and the 
Members of the Committee that these tours, these Congressional 
staff tours, really help provide a very valuable first-hand 
education about the importance of manufacturing to the Nation's 
economy. They are bipartisan, highly educational, and during 
these tours and visits, Congressional staff have unfettered 
access to leaders and workers at manufacturing facilities.
    Now, curtailing or making more complicated any of these 
educational processes will impede our ability and the ability 
of the NAM members to provide input on issues that are before 
the Congress right now that directly impact the livelihoods of 
Americans and the overall economic welfare of our country.
    It is interesting, already, the ethics debate itself is 
having a chilling effect. An upcoming Houston educational trip 
has experienced several staff withdrawals since the 
conversations have begun, and it puts now that entire tour in 
Houston at risk.
    I think elected leaders who cherish our unique freedoms 
outlined in the Bill of Rights to our Constitution should act 
very carefully to ensure the ability of Americans to educate 
and inform our elected leaders is not restricted. Madam 
Chairman and distinguished Senators of this Committee, this is 
America, and in America, our elected officials don't hide from 
those they represent.
    Now, I have been in politics long enough to know Congress 
is going to react. This impressive turnout today is indication 
that there will be a reaction to the scandals that have been on 
the front pages of the papers around the country. There are 
going to be new rules. There will be new legislation of some 
sort, and it will happen soon. So whatever occurs, I think it 
is imperative that you don't overreact. Just as a majority of 
Senators and Members of Congress have always conducted 
themselves in a legal and ethical manner, so, too, have a vast 
majority of lobbyists.
    Therefore, as you develop proposals to reassure the 
American people that our government is not for sale, I urge you 
to consider the following points, and I will try to run through 
them very quickly.
    First, current laws and rules are imposing serious 
penalties on those who have abused the public trust. A lobbyist 
is going to jail. A former Member of Congress will soon be 
sentenced. The system caught them, and additional rules and 
laws weren't needed to make them pay the price.
    Second, I think Congress has got to be careful not to treat 
all who are classified as registered lobbyists the same. There 
is a distinct difference between the for-profit and high-
profile specialists and the work of associations, companies, 
and causes who lobby directly for organized interests or for a 
specific membership. Our association, for example, as I suspect 
the vast majority of these, is governed by a constitution. It 
has bylaws, a governing body, and itself has fiduciary 
responsibility, and there is a very direct involvement of the 
members. So there is an obvious distinction between the 
501(c)(6) membership trade organization and the hired gun.
    Third, in an attempt to limit gifts and meals, try not to 
create a paperwork nightmare for trade associations and their 
members who are legitimately using working meals and similar 
functions to educate leaders and staff. A hamburger, I don't 
think, is going to change the mind of Members of this Committee 
or, frankly, your staff that supports you so well.
    Fourth, as you focus on the obvious excesses, don't limit 
the ability of trade associations and members to sponsor out-
of-Washington activities that educate policy makers on the 
real-life impact of their actions. Globalization, you heard it 
earlier, requires elected leaders to go firsthand today to see 
how manufacturing facilities operate and what the challenges 
are as they confront international competition.
    Fifth, the concept of personal responsibility has been the 
bedrock of previous changes in Federal law or Congressional 
rules promulgated by Congress. Personal responsibility may be 
hard to legislate, but it remains the bedrock principle of 
reform. Congress has to look inward, adopt measures to 
seriously enforce the rules it has already imposed on its 
members before it attempts to pass the blame to others for the 
ethical lapses of a very few members.
    Before I came to the NAM, I spent 32 years in public office 
in Senator Levin's home State of Michigan, 20 years in the 
legislature and 12 years as Governor. During that time, I was 
lobbied by everyday citizens, teachers, law enforcement, union 
members, business executives, even registered lobbyists. I 
learned a lot by listening. There were many times when the 
persuasive arguments of informed citizens changed the outcome. 
Their real-world experience trumped the theories of very smart, 
well educated staff or bureaucrats.
    Personal responsibility and integrity are absolutes in 
public office. If the public trust is violated, the offending 
parties have got to pay a price. But in responding to the 
violations, eroding and impeding opportunities for American 
people to contact their elected officials and representatives 
is not the answer, nor is punishing the law-abiding, hard-
working Members of Congress and their staffs for the sins of a 
very few.
    Thank you, Madam Chairman and Members of the Committee, for 
your time today.
    Chairman Collins. Thank you. Mr. Samuel.

 TESTIMONY OF WILLIAM SAMUEL,\1\ LEGISLATIVE DIRECTOR, AFL-CIO

    Mr. Samuel. Thank you, Senator Collins and Members of the 
Committee, for inviting me to testify on behalf of the AFL-CIO 
at today's hearing on lobbying reform.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Samuel appears in the Appendix on 
page 79.
---------------------------------------------------------------------------
    The AFL-CIO represents over 9 million workers in 52 unions, 
and on their behalf, we promote policies that will improve the 
lives of all working Americans. We support legislation that 
will make it possible for every American to have a good job 
with financial security, access to affordable health care, and 
a secure retirement.
    Labor unions allow ordinary workers to join together and 
make their voices heard. One of the most important ways unions 
do that is by serving as an advocate for workers, both 
organized and unorganized, in the halls of Congress. Yet even 
with the participation of workers through their unions, the 
voices of ordinary workers are still overwhelmed by an 
avalanche of corporate money. Political Action Committees set 
up by corporations outspent labor union PACs by 24 to 1 in 
2004. The imbalance is even worse when it comes to lobbying. In 
2000, according to the Center for Responsive Politics, 
lobbyists representing business interests outspent workers' 
representatives by more than 50 to 1, spending well over $1 
billion to influence the outcome of legislation.
    The effects of that imbalance are plain to see. If our 
politics truly represented the interests of the vast majority 
of working Americans, we believe that the recent anti-consumer 
bankruptcy bill would not have been enacted. The prescription 
drug bill would have financed drug coverage for seniors instead 
of profits for the pharmaceutical companies. The Federal 
minimum wage would have been raised a long time ago.
    The problem of corporations and wealthy individuals buying 
disproportionate influence in Congress has gotten worse in 
recent years, and the abuses have become more flagrant and 
egregious. Now, a spate of scandals has focused the spotlight 
on corruption in Congress, and they have increased political 
pressure for reform. As a result, it will be necessary to do 
away with many of the tawdry ways in which perks and campaign 
cash have been traded for legislative favors, especially in 
recent years.
    But we urge Congress to pursue meaningful reform rather 
than cosmetic changes by addressing the root causes of 
corruption. Reform should not be used as an excuse to heighten 
the disproportionate influence business already has in 
Congress, discourage grassroots participation in the democratic 
process, or inhibit the ability of groups representing workers, 
consumers, and other ordinary Americans to petition the 
government and participate in politics.
    One key principle for reform is that new rules on gifts and 
travel should not treat individuals differently based on 
whether they are lobbyists, nor treat organizations differently 
based on whether they employ lobbyists. The key consideration 
should be whether individuals or organizations have interests 
before Congress regardless of how they conduct their lobbying. 
For example, lobbyists are not the only individuals who should 
be subject to the gift ban. If Congress is going to tighten the 
gift ban, and we think it should, the ban should apply to any 
individual who has an interest before the Congress, subject to 
the current common sense exceptions currently contained in Rule 
35.
    The AFL-CIO supports a ban on all privately funded travel 
for members and staff, subject to one exception. Payments for 
reasonable costs incurred in connection with attendance at an 
organization's meeting or convention that is being conducted 
for reasons unrelated to the member's attendance should be 
allowed. Under this exemption, the Chamber of Commerce could 
pay for a member to travel to one of its regular meetings, and 
the AFL-CIO could pay for a member to attend its conventions or 
executive council meetings.
    We strongly support prohibiting Congressional travel on 
aircraft owned by corporations or other private groups. Even 
the most far-reaching reform proposals now under consideration 
would allow such travel so long as it is reimbursed at full 
cost. But providing this kind of transportation is a special 
favor that is not extended to other individuals with the means 
to pay, even if members pay the full cost at market prices. We 
think Congress should end the practice of flying members around 
the country on jets owned by corporations with business before 
the Congress.
    In addition to the travel and gift bans, the AFL-CIO 
supports several measures that address the relationship between 
Members of Congress and lobbying firms. We support extending 
the post-employment lobbying ban for Members of Congress and 
senior staff to 2 years, disclosure of negotiations for post-
Congressional employment, and the elimination of floor and gym 
privileges for former members who represent interests before 
Congress.
    We also support increased disclosure. On this issue, it is 
important to understand that labor unions already disclose to 
the Department of Labor all of our expenses related to politics 
and legislation under the Labor Management Reporting and 
Disclosure Act. There is no individual, business, or trade 
association that discloses through the Internet as much 
information about their expenditures and public outreach as the 
AFL-CIO and our sister labor organizations.
    The leading reform packages require, for the first time, 
public disclosure of so-called grassroots lobbying, generally 
defined as attempts to influence the public to contact Members 
of Congress. We want to be clear that, as a general matter, 
grassroots lobbying is not a problem. Efforts to mobilize 
citizens to influence public decisionmaking are an important 
part of the democratic process and protected by the First 
Amendment. But we do believe it serves a useful purpose to 
require more public disclosure of who is paying for such 
efforts at persuasion and mobilization. Senior citizens should 
know that the coalition called United Seniors Association was 
funded by the pharmaceutical industry to lobby for the Medicare 
drug bill.
    Most union grassroots lobbying and outreach activities are 
directed not at the general public, but at union members on 
issues of importance to our members and to working families 
generally. This kind of outreach is one of the reasons workers 
join unions in the first place and is an important aspect of 
their right to freely associate. All of the principal reform 
proposals, the Democratic package, the Feingold bill, and the 
McCain bill, properly exempt organizational outreach to 
members, employees, officers, and shareholders.
    The Democratic reform package contains important reforms 
that are absent from other leading proposals. For example, the 
Democratic plan would shut down the K Street Project through 
which Republican office holders pressured lobbying firms and 
trade associations to hire only Republicans, thereby 
guaranteeing support for Republican-sponsored bills and a 
steady stream of campaign contributions for Republican 
candidates.
    We also believe the Democratic package provides an 
appropriate enforcement mechanism through its Senate Office of 
Public Integrity, a provision lacking in both the Feingold and 
McCain bills.
    But several aspects of the Democratic proposal could be 
improved. Although the Democratic bill states that the Director 
of the Office of Public Integrity must be appointed ``without 
regard to political affiliation and solely on the basis of 
fitness to perform the duties of the position,'' we suggest 
that the inherent partisanship of the selection process is not 
remedied by an unenforceable prohibition of partisanship. The 
Democratic reform package should also clarify that the office 
has investigatory powers, and it should be required to respond 
to complaints filed by the public.
    By themselves, these reforms will not fully ensure that the 
concerns of ordinary Americans are fairly represented in a 
legislative decisionmaking process that is currently dominated 
by wealthy special interests. Hardly anyone doubts that 
corporations wield disproportionate influence in Congress when 
they spend 50 times more than working people on lobbying or 
when their PACs spend 24 times more than labor unions on 
political campaigns.
    In addition to tighter rules on lobbying, public financing 
of Congressional elections will be necessary to complete the 
job of cleaning up the corrupting influence of money in the 
legislative process. Only public financing can ensure a level 
playing field where the interests of ordinary citizens and 
workers are treated with just as much respect and consideration 
as the interests of well-heeled corporations and wealthy 
individuals. Public financing is the crucial element necessary 
to restore public confidence in our political system.
    This may well be an historic opportunity for Congress to 
restore integrity to the legislative process, and we urge 
Congress to act quickly in this area. But we also caution that 
the problem of Congressional corruption will not be fixed until 
the interests of the vast majority of working Americans are 
given the same weight as corporations and the most privileged 
individuals in our society. Thank you.
    Chairman Collins. Thank you very much for your testimony.
    I want to begin my questioning today exploring the issue of 
travel, which all three of you have touched on. I think this is 
a difficult issue that is more complex than it appears at first 
glance. To me, it is easy to distinguish between a lobbyist-
paid golf trip, which in my view should be banned, versus the 
Aspen Institute educational seminars, which in my view are very 
worthwhile. It becomes more difficult, however, when you 
exclude those two extremes and start trying to define 
appropriate travel sponsored by private groups, and Governor 
Engler mentioned examples of that.
    I want to give you another example and get your reaction. 
In recent years, there has been a very vigorous debate over 
whether or not we should drill in the Arctic National Wildlife 
Refuge, known as ANWR. Since Senator Stevens is not here, I can 
say I am against drilling in ANWR. [Laughter.]
    I will also say that I have never taken a trip to see ANWR, 
but there have been trips sponsored in the past by the 
Wilderness Society, the Sierra Club, and the Alaska Wilderness 
League, who are very much against drilling and want to take 
members so that they can see it firsthand. On the other side, 
the primary industry organization sponsoring ANWR trips is 
Arctic Power. It used to be that BP and ARCO also contributed 
to the cost of those trips, but they haven't in recent years.
    I am wondering if that is troubling or not. Ideally, you 
may say that the government should sponsor those trips, but is 
it a problem to have environmental groups taking members to 
show them their view of ANWR and the industry groups offering 
trips to go see ANWR? We are not talking about trips to Paris 
here. We are not talking about trips to play golf.
    Senator Clark, let me start with you.
    Mr. Clark. My own judgment is that it would be better done 
as a CODEL or a series of CODELs. I believe the only way you 
can really reform the system consistently is to say that funds 
may not be accepted from registered lobbyists or people who 
employ registered lobbyists and that lobbyists should not be 
able to go along. I don't know, on these trips that you have 
talked about, whether that is the case or not and whether the 
money that is being used be declared or certified, whatever, in 
advance. So under the proposal that I am making, those groups 
would not be able to continue that activity, but I do think it 
would be better done by a series of CODELs.
    Chairman Collins. Governor Engler.
    Mr. Engler. Well, I am so anxious to get Members of 
Congress to travel that I would be very supportive, and I would 
be happy to have the environmental groups or the oil companies 
or the utilities take people up there because I very strongly 
support drilling in the ANWR and think that it is part of our 
energy solution. So I would be happy to see people get there.
    I think the solution is disclosure. I do think sunshine 
matters. I mean, put it on the record. Put the itinerary out 
there. I happen to think something that Senator Clark referred 
to--globalization today has put a burden on Members of Congress 
to travel, that is--I think the Senate has done more travel 
than the House has done, but we really need every Member of 
Congress to go to China almost every year and see what is going 
on and come back and act sort of with that knowledge at their 
fingertips, to see some of this, because it is a big challenge.
    And how do we get that done? I fear that if we restrict it 
to CODELs, that the taxpayer cost of this grows so great, so 
fast that somebody will be running against members because they 
spent all of this taxpayers' money traveling. That is one of 
the reasons there was a chilling effect, I believe, some years 
back. Most governors travel, I think, more than Members of 
Congress. Senator Voinovich and I had some of that experience. 
I just think that it is essential today.
    Let us disclose it, report it. I think reporting in advance 
would be fine. There are ways to put the transparency out 
there. You are still going to be lobbied by the same groups at 
home or in your office. The facts will come to you. Go get the 
firsthand knowledge yourself, I would recommend.
    Chairman Collins. Thank you. Mr. Samuel.
    Mr. Samuel. I agree with Senator Clark. I think the 
simplest answer is that if a trip is worth taking to better 
inform Members of the Congress, the Congress ought to pay for 
it. I am not alleging that either environmentalists or 
corporations have corrupt intent when they take members on 
trips to see their plants or the oil fields. But the fact is, 
they will enjoy the kind of access to these members in a 
relaxed setting that ordinary Americans will never have, and I 
think that in itself is a problem. It is a problem of 
perception. Certainly, the vast majority of Americans think it 
is a problem. And I think it can be a problem, and the simplest 
way to address it is to have Congress pay for the trips.
    Chairman Collins. Mr. Samuel, just a very quick question to 
clarify your statement. You called for a ban on using corporate 
jets. We had hearings last year in which we looked at the 
practices of a labor-owned insurance company called Ulico, 
which had a private jet that was widely used by some Democratic 
Members of Congress. When you are calling for a ban on 
corporate jets, I assume you mean that more broadly and would 
apply it to union-owned jets, as well?
    Mr. Samuel. Absolutely.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Maybe I should begin with a disclosure. I am a proud and 
grateful graduate of the Aspen-Dick Clark Public Policy 
Seminars. I haven't been in a while, unfortunately, but they 
have been extremely valuable to Members of Congress.
    The good news, as I see it, Dick, is that none of the bills 
being proposed here would limit the kinds of programs you do. 
You are a separate 501(c)(3). By your decision, you are only 
funded by foundations. But there is some possibility, just 
listening to and reading what the Speaker of the House has said 
about the intentions in the House, that the bill there, or the 
proposal that is currently being discussed, might ban all 
travel, and I hope that we can work together to make sure that 
does not happen.
    There are separate questions raised by proposals in some of 
the bills. Some of the bills before the Senate on the question 
of travel allow travel but with disclosure. Senator McCain and 
I have essentially introduced the disclosure bill in terms of 
everything that has been said, but we both said that we are 
open to hearing other proposals. One of the other interesting 
wrinkles here is that a couple of the bills prohibit 501(c)(3) 
nonprofit corporations that are affiliated with a 501(c)(4) or 
some other lobbying groups from paying for travel by Members of 
Congress, and that approach, for instance, would specifically 
prohibit travel sponsored by groups such as the Sierra Club, 
which I believe has a lobbying organization and then a separate 
501(c)(3). Those bills would prohibit that. That is a separate 
question I think our Committee will want to look at.
    I want to go to the question of grassroots lobbying and 
specifically to ask Governor Engler and Mr. Samuel to talk a 
little bit about the provisions here. The intentions in the 
bill that Senator McCain and I have put in would be to force 
the light of disclosure on all forms of grassroots lobbying, 
and by that, we are not meaning people voluntarily doing 
grassroots work for the AFL-CIO or NAM but lobbying firms that 
you might retain. Obviously not in your case, but in the 
Abramoff case, he used the Scanlon firm to funnel millions of 
dollars back to him.
    There is no intention in any of these bills to limit the 
capacity of organizations like yours or others to get their 
members to lobby Congress. That is a constitutional right. Have 
you reviewed those sections of the proposals that affect 
grassroots lobbying and are you comfortable with what you have 
seen in terms of what you do with grassroots lobbying? Mr. 
Samuel, do you want to start first?
    Mr. Samuel. We have reviewed them, and we are comfortable 
with them. We think they leave room for organizations like the 
AFL-CIO to educate and try to mobilize our own members to 
contact their Members of Congress. We do support some outside 
coalitions to do work, but we have no problem if that 
organization or that firm discloses the fact that the AFL-CIO 
is paying for that service. We think that would be a service to 
Americans. I mentioned in my testimony that there are all kinds 
of organizations springing up around the country with very 
public-spirited sounding names--for example, the Coalition to 
Reform Health Care, United Seniors Association. I think people 
who receive the information from those groups would want to 
know who is funding them.
    Senator Lieberman. Governor Engler.
    Mr. Engler. This is very complicated, as your question 
intends it to be, because if we partner up, we have 50 State 
affiliates and sometimes we will engage a State affiliate in--
well, the Georgia tour. I don't know if the Georgia State 
affiliate, they no doubt were talked to. We also have some 
local groups that are affiliated, as well. Now, they don't 
really get hired by us to do that, so I see a distinction if we 
go hire a third party to send a mailer out or to produce an ad. 
Then that gets to be almost over into the campaign side of 
things.
    What we are worried about is just how do we continue to 
function and how much paperwork and burden gets imposed to the 
point where it is a tipping point and you say it is not worth 
it or the company--let us say in one of our visits here, I will 
use Georgia, we went to the Georgia Power Company to one of 
their power plants, Illinois Tool Works to look at stretch film 
specialty products, then we went to Coca-Cola, Archwood, and 
these were all in--Mead Westvaco packaging systems and an Owens 
Illinois Plant. I mean, these were all, each of these, experts 
at making things using the products. Were those companies then, 
because they spent some money to get ready, they walked people 
around, they had to outfit them with a hardhat in some cases, 
is that part of that lobbying, then? Do they report, too? Are 
they swept in? So it is how you draw the lines.
    Senator Lieberman. Yes.
    Mr. Engler. And I appreciate your sensitivity and the 
question. We want the legitimate stuff to go on, and if we are 
after Harry and Louise or Harry and Thelma or whoever that was 
in the ad or some of the stuff that the labor guys do with 
their trial lawyer friends, I mean, all of that stuff is 
grassroots lobbying, as well, and I would love to get at some 
of these ads that have been run by some of these people against 
some of the things that I am for. Just protect the legitimate 
ones.
    Senator Lieberman. Yes, I hear you. My time is up. I will 
just say that I believe the intention here is not to sweep in 
those local affiliates that you work with, although there is a 
somewhat related provision--and this is something else that 
came out of the Abramoff situation--that aims to remove a cloak 
of mystery over ad hoc lobbying coalitions by requiring 
lobbyists to list as clients--now again, this is disclosure--
not only the coalition, but any group that contributes more 
than $10,000 to the coalition.
    So again, this is disclosure. You get a lot of lobbying 
coalitions together. The lobbyist can say, I represent the 
coalition, but then the public has the right to know who is 
contributing beyond a de minimis amount to that coalition.
    My time is up. We are going to be involved in a lot of 
detailed discussions like this, which is why we are open to 
consideration. Senator McCain ultimately has made the bill that 
I am now cosponsoring with him a disclosure bill because the 
details here are difficult to work out in a fair and 
constructive way for every situation. Thank you.
    Chairman Collins. Senator Voinovich.
    Senator Voinovich. I would like to ask some broader 
questions. For example, are each of you familiar with the 
disclosure requirements of your respective organizations? Do 
you have any idea of the amount of money that you spend each 
year to comply with these requirements? To your knowledge, have 
you ever heard from the people that you file the reports with, 
asking questions about what you have filed to give you some 
feeling that somebody is reviewing them or is this just all 
boilerplate as far as you are concerned?
    Mr. Samuel. I guess I will go first. We are aware of the 
requirements. We do file a semi-annual report. I don't believe 
we have ever heard back from the Clerk's office that we have 
made a mistake. In fact, one year, I will candidly admit, we 
missed the deadline for filing, and I don't even think we were 
reminded. We finally discovered the oversight ourselves.
    Senator Voinovich. Is it your feeling, Mr. Samuel, that 
maybe somebody doesn't pay much attention to what is being 
filed?
    Mr. Samuel. I think that is right.
    Senator Voinovich. Governor Engler.
    Mr. Engler. No feedback from anybody that--I just asked our 
folks. I have only been at the NAM a little more than a year, 
so I hadn't heard anything, but we have not previously heard 
from the agencies where we file the reports. We say that we put 
in literally what becomes over the course of a year hundreds of 
hours because we do a lot of these grassroots tours. They are 
complicated to put together. Since 2004, we have done 17 of 
them. We have got about 175 members of the Congressional staff 
that have come on these.
    Our own disclosure in terms of, we do not happen to have a 
Political Action Committee at the NAM, so we don't have that 
side of the house, but we do have the 501(c)(3) Manufacturing 
Institute that does studies, and so they have got a separate 
set of rules that we observe over there. They are not involved 
in any of the stuff that we do on the lobbying or advocacy 
side.
    It is a burden. What we are worried about is that if the 
burden goes up too much, Senator, we lose members because of 
the hassle factor. They don't want to put up with it. We are 
sort of geared up to do it so we do it, although we think 
probably nobody reads it.
    Senator Voinovich. Senator Clark.
    Mr. Clark. Well, I think the only----
    Senator Voinovich. By the way, Senator Clark, I would like 
to say to you that I only attended one of your events, and that 
was in China last year, and it was the best educational 
experience I have had since I have been in the U.S. Senate. The 
experience gave me insights that were absolutely valuable to me 
as a member of the Foreign Relations Committee and also a 
perspective on a lot of other things that we are confronted 
with here in the Senate, so I want to thank you. I have never 
heard anything but good comments about the Aspen Institute and 
the good work that you do.
    Mr. Clark. Thank you very much. Our disclosure is really 
limited to providing Members of Congress who traveled with us 
with an exact accounting of the amount of money that was spent 
at the seminar and getting to and from the seminar, and we 
provide that within about one week of the time that----
    Senator Voinovich. Do you file that with some----
    Mr. Clark. We don't. Actually, we send it to the member, 
and then the member files it with the Secretary of the Senate 
or the Clerk of the House.
    Senator Voinovich. In our reports at the end of the year, 
we have to send it. So that is the way that we officially have 
knowledge of it and that is the public disclosure of it?
    Mr. Clark. Exactly.
    Senator Voinovich. OK. Do you all agree that Members of 
Congress should travel and their staffs should get out and 
around the country to find out what is going on?
    Mr. Engler. Absolutely. One thing I heard about Australian 
parliamentarians when I was talking to one of my counterparts 
down there, they actually put in their budget a specific amount 
for each member, the only purpose for which it can be used is 
to go places, and that becomes sort of an issue if they don't 
go, actually. It works that way in Australia.
    Senator Voinovich. What if there is some unique event 
taking place at a hospital in this country that members of the 
Health Committee would be interested in learning about and that 
hospital is willing to pay the transportation costs so they can 
come to see it. Would it be your opinion that the request would 
come in and Senators then would ask the Ethics Committee to 
examine the trip to determine its merit and if it is worthy to 
allow the Senators to pay for it out of their funds?
    In other words, there are lots of good things that groups 
will bring to our attention. This is a really worthy thing, 
going up to ANWR and so forth. But rather than having the group 
that thinks we should do it pay for it, in fact, we would pay 
for it out of our own funds in the Senate to try to ameliorate 
any kind of concern that you are going to get lobbied on the 
trip.
    Mr. Samuel. I think that is a very good solution.
    Mr. Engler. I think it is a fine solution. I just want to 
protect members from being hammered back home by the political 
opponent who says, well, somehow that was an abuse, because 
people will view that--they will say, if the hospital happens 
to be in, well, let us say in a colder climate in a cold part 
of the year, that may not be as troubling as if it was in 
beautiful, warm Palm Springs at this time of year. They would 
conclude you were off on a frolic, and we all know how these 
campaigns have worked. So somehow, you have to protect the 
member or we have to create a different ethic around here, and 
this environment has been pretty tough on trying to do that. I 
mean, that is a fundamental problem with this. But members 
desperately need to travel.
    Mr. Clark. I agree with that. I think in this day and age, 
it would be foolhardy for members not to have an opportunity to 
travel to other countries. Most of what I do is foreign policy, 
and I think by going to the country that you are studying--
Senator Voinovich mentioned our trip to China. We also do a 
conference, a seminar in the Islamic world each year, and one 
in Latin America each year, and one in Russia or Europe each 
year because these are the topics we are discussing, and we 
look at relevant things on the ground and meet with 
parliamentarians there and others. So I think it is essential 
that travel not be restricted so that the average member really 
doesn't have the opportunity to travel.
    Senator Voinovich. I would like to make one last comment, 
which is that the smart Members of the Senate, when they are 
traveling or when their staff are traveling, should notify the 
Ethics Committee beforehand so that we can review it and tell 
them whether or not it fits in with the rules. So I think that 
the public should know that the smart people do that, and that 
is one way that you eliminate some of the problems that we are 
talking about.
    Mr. Clark. As a matter of fact, we do that. We have 
submitted all five of our conferences for this year to the 
Senate Ethics Committee, and they are in the process of 
reviewing all of those to make sure that they meet the criteria 
of the Senate.
    Mr. Engler. And we do that with our plant tours, as well. 
They come to your committee.
    Chairman Collins. Senator Carper.
    Senator Carper. Thanks, Madam Chairman.
    If I may say to Mr. Samuel, welcome. It is good to see you. 
To my old colleague, Governor Engler, it is great to see you. 
Thanks for joining us today. And to the real Dick Clark---- 
[Laughter.]
    Not to be confused with the world's oldest teenager, the 
other Dick Clark, we are glad you are here. Thanks for coming 
and for being forever young.
    I think I want to maybe direct a question to Governor 
Engler and then maybe some other members of the panel, and I 
apologize for ducking out. We have another hot hearing going on 
with respect to flood insurance reform on the heels of Katrina, 
and I am trying to bounce back and forth between both of those, 
so I missed your testimony. So if I am asking some questions 
that are duplicative, let me know.
    Before I ask my specific question, Governor, let me just 
ask each of you to take maybe 30 seconds and point out a couple 
of broad areas you think that there is unanimity in opinion on 
this panel or some things that you really think you all three 
agree on that we ought to consider as we go forward and take up 
this legislation? Bill, if we could start with you, that would 
be great. Where do you think you all agree?
    Mr. Samuel. Well, I think, if I heard the testimony right, 
I think we all agree there needs to be greater disclosure. I am 
not sure how much further we go than that, but we will study 
the recommendations.
    Senator Carper. All right. Governor Engler.
    Mr. Engler. I think we also agree that enforcement of 
existing policies and rules is real important and that in 
enforcing them, to some extent, the members and lobbyists who 
are regulated by them are being punished because they have 
violated them.
    Senator Carper. All right. Thanks. Senator Clark.
    Mr. Clark. I believe disclosure is needed, and I think we 
all agree upon it. I think we all agree that travel is 
important, that it not be restricted in a way that--it is very 
important that it be restricted in a way that takes the special 
interests out of paying for this. But I think it remains 
essential that members travel.
    Senator Carper. I have just sort of a follow-up to that. We 
have a situation where if we have a ban on gifts or a ban on 
travel, let us say it is illegal for a lobbyist to take 
somebody, a member or a staff person, out to dinner. But if a 
lobbyist and a Senator or a Member of the House go out to 
dinner, the lobbyist makes a $5,000 donation to the member's 
campaign reelection committee and then the member pays for the 
meal, have we really accomplished all that much by having a ban 
on gifts?
    Mr. Engler. Well, it sounds to me like you just had a 
fundraiser. [Laughter.]
    Senator Carper. If you heard my earlier testimony, we have 
them all the time around here.
    Mr. Engler. I think there is something absurd about that--
--
    Senator Carper. Too often.
    Mr. Engler [continuing]. Where if I give you a check, we 
can have a meal together, but if I don't give you a check, we 
can't, unless if we do then you pay for your meal and I pay for 
mine. I mean, that is just counterintuitive, and yet--well, we 
just stayed away from that in our testimony because I suspect 
that wasn't necessarily under consideration here. You have had 
other novel ideas tossed about, and I will leave it to you to 
work on.
    Part of this is in defining how big is the problem we are 
trying to fix, Senator, and the personal responsibility of the 
members at the end of the day is what is going to decide a lot 
of this and how they conduct themselves. I don't know what laws 
will work to fix that.
    Mr. Samuel. If I could just say----
    Senator Carper. Mr. Samuel.
    Mr. Samuel [continuing]. In response to that, I think 
tinkering around the edges of the campaign finance laws is 
probably not going to solve the problem, which is why we have 
called today and for many years for public financing of 
campaigns. I think you would all benefit from that and your 
spouses and families would benefit from that, and I think our 
democracy would benefit from it.
    Senator Carper. Thank you.
    Mr. Clark. I don't have a further comment.
    Senator Carper. All right. Now, after that specific 
question, Governor Engler, I think you include some trip 
itineraries in your testimony, I believe. I missed that, but I 
understand you did.
    Mr. Engler. Yes.
    Senator Carper. But it is clear from those documents that 
the individuals that you brought to, I think, Atlanta and maybe 
to Phoenix had full days and weren't on anything like a 
vacation. Are there any limits, however, on how much you and 
other lobbyists or professional organizations can spend to 
transport, to feed, to entertain members or staff when they are 
taken on trips of this nature? Should there be some kind of 
limits, and does NAM have any policy on this?
    Mr. Engler. Well, I know we have--those meals and that 
would be covered by our policy, a widely attended event, but it 
still is reported. I mean, some of these locations, it hasn't 
been problematic, but we feel we are public with them and fully 
reporting. They are not walking away with fancy suitcases and 
traveling outfits that we provide for them. They don't get an 
NAM sportcoat for making the trip, that kind of thing.
    Senator Carper. All right. Senator Clark, you served in 
this body earlier in your career. What years were you here? I 
think you served for 6 years, did you not?
    Mr. Clark. That is correct. I left in January 1979.
    Senator Carper. I am certain that you and your staff had at 
least some contact during that time with lobbyists, did you 
not?
    Mr. Clark. Oh, absolutely.
    Senator Carper. Would you just talk to us a little bit 
about those contacts? Were they different from the kinds of 
contacts that we have now with lobbyists and outside interests?
    Mr. Clark. I don't think they are different in nature. They 
are different in volume. There are many more lobbyists, as 
several members of the panel have said. But not being a 
recipient of the lobbying in the last 25 years, I am not sure 
in detail what that difference is.
    Senator Carper. OK. You do spend a fair amount of time with 
Members of the House and the Senate.
    Mr. Clark. Yes.
    Senator Carper. Let me just ask, compared to when you were 
serving here, do you think there has been an erosion of ethics 
in the Congress in those who serve as members and staff?
    Mr. Clark. I would say yes.
    Senator Carper. Could you add any more than that?
    Mr. Clark. I think it stems from a lot more money in 
politics, both in the election system and otherwise. I just 
think there are many more opportunities now for lapses than 
existed then. But I have not thought about it systematically by 
comparison of the two periods.
    Senator Carper. All right. Thanks. My time has expired.
    Mr. Clark. That is an impression.
    Senator Carper. Thank you. I would just say to my 
colleagues, again, we actually ran the numbers. This is my 12th 
state-wide race this year. When I ran for the Senate against 
Senator Roth in 2000, we spent more in that campaign than I 
spent in my previous 10 state-wide races combined. You can look 
at the curve in terms of state-wide races and what it costs. It 
is going up exponentially. It is not going up on a straight 
line.
    For me, I come back to what I said earlier. I am more 
troubled by that than I am by this issue of meals and accepting 
a gift and stuff like that. I think we are going to pass 
legislation that says we are going to ban gifts, we are going 
to ban travel, we are going to have much better enforcement of 
the laws that exist, all of which are important, especially the 
last one. But I think we have an opportunity here to address 
more of the root problem, and that is the issue just of how 
much time we spend helping not just ourselves but others who 
are running in campaigns all over the country, and it is a huge 
demand on our time, and I think it poses maybe greater problems 
and concerns than what we are dealing with here. Thank you.
    Chairman Collins. Senator Coleman.
    Senator Coleman. Thank you, Madam Chairman. My more senior 
colleague, I know that he is a graduate of the Aspen Institute. 
I still consider myself the student. I have been to a couple of 
Aspen seminars.
    It is interesting. We come here, and I sit in my seat in 
our corner of the chamber, and we go to lunch on Tuesday, 
Wednesday, and Thursday with my colleagues on our side of the 
chamber. Other than CODELs, in fact, Aspen probably provides 
one of the few bicameral or bipartisan intensive policy 
discussions that we have, and I think that is a pretty good 
thing.
    My concern, Senator Clark, is that your approach is a 
little too narrow when you just say CODELs and the concern is a 
reflection upon the reality that in a couple of years down the 
road, and it goes perhaps a little bit to what Governor Engler 
talked about, but not just the constituents back home looking 
and saying, what are you doing with your budget, but the 
reality is that we are going to be looking at budget issues and 
on the table are going to be defense and going to be education 
and homeland security and border security and Katrina-type of 
crises, and then travel, or foreign travel. I can tell you from 
experience this past year, we had about two or three efforts to 
cut things related to foreign aid or anything like that in 
regard to more pressing domestic matters.
    And so in the end, what I worry is that we are going to 
have an institution in which understanding that China 
relationship is pretty important, and it is important 
domestically for my manufacturers in Minnesota, for my rank and 
file workers in Minnesota, and if we lose the ability to do 
that, I think this country is going to be in trouble.
    So I clearly come down on the side of transparency, both 
disclosure, as my colleague Senator Voinovich talked about, up 
front, so we know beforehand, we kind of pre-screen things, but 
then in the end, tell your taxpayers what you are doing.
    I think, for instance, Senator Clark, AIPAC does a service 
in having members go to Israel when you get to meet with 
leaders, and that would be prohibited if we take the approach 
that has been articulated here. So I don't think that helps us 
be better Senators, and I worry about the choices that we are 
going to have to make if, in fact, we go back to just CODELs. 
Then choices are going to be made, and they are not going to be 
made that provide a greater understanding of those 
relationships that have a real impact. Would you agree with 
that or disagree?
    Mr. Clark. I agree with it. I do believe that if the only 
travel that is allowed would be CODELs, that certainly is not 
going to provide the kind of broad experience that members need 
because taxpayers are not going to, and I assume the Members of 
the Congress are not going to increase the travel budget to a 
point that would be necessary to do that. I do think a CODEL on 
some occasions, for example, the one that Madam Chairman talked 
about, is a better way in that particular case. But I don't 
think that CODELs can be the only approach. I think if the 
special interests are out of funding Congressional travel and 
you can make arrangements that fit that category, that they 
should be allowed.
    You mentioned the trips of the AIPAC. I don't know the 
details at all of that particular organization or travel, but I 
think they and many other groups could organize in a way to 
meet the criteria that I am citing if there were no lobbyists 
involved in any way in the planning or in the trip or in paying 
for the trip directly or indirectly. Then I think it would 
certainly meet this criteria, and I think most organizations--
many organizations could do that.
    Senator Coleman. I think we have to take a look at that. I 
always prided myself when I was a mayor on public-private 
partnerships. I never believed that taxpayers had to pay for 
everything. I never believed the taxpayers were responsible for 
all the growth and development. So I worked closely with the 
business community, the nonprofit community. For a city, the 
way you grow a city is you have got the three legs of a stool--
government, private sector, nonprofit, and so I worry here we 
are going to kind of cut off two of those legs in terms of 
educational opportunities, things that I think make us better 
public officials.
    One other area of concern. I am looking at an independent 
review of these issues because, again, I really think that we 
have to do this outside the kind of intensive partisan 
political atmosphere that we are in now, but we have to do it, 
and we need to do it quickly, and we need to do it well. The 
question I have is a question of scope, and I would ask each of 
you, if there was to be an independent commission looking at 
this issue, there is concern if we just look at travel, we are 
not getting to the root of it, and I think that phrase has been 
used. How do we get to the root of the problem? Can each of you 
just articulate a range of issues that need to be looked at if 
we want to get to the root of the problem? Mr. Samuel.
    Mr. Samuel. Well, as I indicated in my testimony, the 
problem is pretty far-reaching and solutions are not easy to 
pinpoint. As I said, the fact is that groups representing 
corporations and businesses outspend unions, 50-1 in their 
lobbying and 24-1 in terms of their political donations. Those 
are big issues to tackle. It is not limited to meals and 
travel. It is the way our democracy operates and how we 
petition our government. So I would recommend the broadest 
possible scope for your inquiry.
    Senator Coleman. Governor Engler.
    Mr. Engler. Well, just on the record, obviously I don't 
accept the characterization of how the current campaign finance 
is working, and I have for a long time not had a lot of 
sympathy for the ``poor underfunded labor unions'' in the 
political process and some of their well-heeled allies. So 
rather than go down that route, that is a whole separate 
inquiry if you want to go into the funding of campaigns. Public 
funding is a good way to set up incumbent protection, and I 
think there are a lot of concerns about that whole thing.
    In terms of scope, I think there are a lot of companies out 
there who have very firm gift ban policies. They don't let 
corporate purchasing staffs accept travel, trips, or gifts. 
There are some models, perhaps, there. There are also perhaps 
models in terms of what gets encouraged. I just am very 
concerned that in the zeal to respond, that we go overreaching 
and we are not hitting the problem but we are creating other 
problems that become more acute. Even Mr. Clark's formulation 
on keeping the lobbyists out, who is a lobbyist when somebody 
is traveling because the most effective lobbyists may well be 
the lay leader in AIPAC. I know a couple of our CEOs that have 
been active there. They are far better than anybody else that 
could lobby on that issue when they have an opportunity. They 
don't lobby, but they are powerfully persuasive on a point of 
view. I don't want to single them out, but we have mentioned 
that organization. It is one I respect very much. There are 
many others in the same situation.
    So the sunshine has to cure this. We cannot keep track of 
who everybody comes into contact with. At the end of the day, 
it is your own integrity that is on the line. You have to 
decide.
    Mr. Clark. I am speaking only of registered lobbyists, of 
course. I was intrigued by the commission proposal idea that 
you made here at the table a few minutes ago, particularly if 
it could be done in time to really face this issue rather soon. 
If such a commission were to be formed, I think the issues have 
to be very broad. I would certainly include campaign finance 
reform, all of the things we have talked about here today, and 
probably the internal working of the Congress. Several members 
of the panel mentioned various things that would include that. 
So very broad and yet it will have to be specific enough when 
the work starts that it be done in time for legislation to 
address this quickly.
    Senator Coleman. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Thank you.
    I want to thank this panel. We will be in touch with you to 
get further information from you, and we very much appreciate 
your participation today. Thank you.
    Mr. Engler. Thank you very much for the opportunity.
    Mr. Clark. Thank you.
    Mr. Samuel. Thanks.
    Chairman Collins. Our third panel brings together two 
accomplished professionals with experience in the laws that 
govern lobbying disclosure. Fred Wertheimer, the President and 
CEO of Democracy 21, has spent more than 30 years working on 
the issues of money in politics, government accountability, and 
reform of the political system. I had the pleasure of working 
very closely with Mr. Wertheimer during the campaign finance 
reform battles, and I have a great deal of respect for his 
knowledge.
    Paul Miller is the President of the American League of 
Lobbyists. In his capacity, he works to ensure professionalism, 
competence, and high ethical standards within the lobbying 
community, and we are grateful for your presence here today.
    Mr. Wertheimer, we will begin with you.

    TESTIMONY OF FRED WERTHEIMER,\1\ PRESIDENT, DEMOCRACY 21

    Mr. Wertheimer. Thank you very much, and needless to say, 
we greatly appreciated the leadership that you and Senator 
Lieberman and others provided on that very tough battle on the 
2002 campaign finance bill.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wertheimer with attachments 
appears in the Appendix on page 84.
---------------------------------------------------------------------------
    I would like to thank you and the other Members of the 
Committee for this opportunity to testify and also would like 
to thank you for moving so quickly on this issue. I would also 
like to note our appreciation for the work that this Committee 
did in the 1990s under the leadership of Senator Levin, which 
resulted in some very important lobbying and ethics reforms.
    According to a recent CNN-USA Today-Gallup poll taken in 
January, ``Corruption ranked among the concerns most often 
cited by those polled, with 43 percent telling pollsters it 
would be an extremely important issue in 2006,'' just 2 percent 
below the 45 percent response for the war in Iraq and 
terrorism.
    A Washington Post-ABC poll taken on January 10 found that 
90 percent of the responders said it should be illegal for 
lobbyists to give Members of Congress gifts, trips, or anything 
else of value. Again, I will repeat that. Ninety percent said 
that gifts, travel, and anything of value from lobbyists should 
be banned. Two-thirds of those respondents said it should be 
illegal for lobbyists to make campaign contributions to Members 
of Congress.
    These polls show that the American people are looking for 
strong medicine to solve very serious problems they see in the 
way Washington works and the way lobbyists function in 
Congress.
    The opportunities to enact basic government integrity 
reforms are cyclical in nature. They come when problems and 
scandals arise, as they have now. And that means now is the 
time to act. We think it is essential for this Committee and 
the Congress to move quickly to act on legislation, 
thoughtfully but quickly. We all know that in reality, time 
passes very quickly here, particularly in an election year, so 
we would urge you to move as quickly as possible on these 
issues.
    There are really two bottom-line issues here. First, the 
multiple ways in which lobbyists and lobbying groups use money 
to curry favor and gain influence in Congress. And second, the 
absence of effective enforcement of the laws and ethics rules 
that cover members.
    Our organization has joined with six other reform groups to 
set forth six benchmarks for lobbying reform. We have submitted 
our benchmarks to the Committee, and I would ask that this 
statement be included in the record at this point.
    Chairman Collins. Without objection.
    Mr. Wertheimer. Thank you. Our organizations all support 
fundamental campaign finance reforms, including public 
financing of elections, as essential in the end to solve the 
problems that have been illustrated by the recent scandals in 
Washington. We also believe there are very important lobbying 
reforms that can and should be enacted now in order to address 
specific problems.
    The various bills have presented a number of important and 
valuable proposals. I think, as we all know, in the end it is 
the details that will determine the effectiveness of the 
proposals. We would urge this Committee to take the best of all 
the various proposals and come up with the strongest possible 
bill.
    We think it is essential to break the nexus between 
lobbyists' money and lawmakers. If you look at what Jack 
Abramoff did, he used money on Capitol Hill in every way he 
could think of. He made contributions, arranged contributions, 
arranged trips, provided meals, arranged skybox tickets. We 
think that while his activities turned out to be criminal in 
the end, those kinds of tools are the common tools of lobbying 
in Washington, and this has to be changed.
    I would like to just go over a couple of things our 
organizations support. A ban on private interests financing 
travel for members and Congressional staff as well as for 
Federal judges and Executive Branch officials. We believe that 
trips for official business should be paid for by the public 
and through public funds.
    We also think it is essential to end the practice of 
subsidized travel in the form of company and other jet planes 
being made available at very low prices for members to travel.
    We support a ban on gifts to members, and we think it is 
essential that any new restriction close a current gift 
loophole which allows lobbyists and others to pay for lavish 
parties to honor Members of Congress. It doesn't make sense to 
us to say a lobbyist can't pay $25 for a meal and yet can pay 
$25,000 to finance a party for a member at the National 
Conventions.
    There are other provisions we support. I would like to just 
focus on one. It is essential--essential--to change the way 
these rules are enforced. We have proposed an Office of Public 
Integrity in the Congress. We have set out the responsibilities 
this office should have, and that includes the ability to 
investigate matters, receive complaints, and present cases to 
the Ethics Committees, and this office must be adequately 
financed.
    I will be happy to answer any questions the Committee has.
    Chairman Collins. Thank you. Mr. Miller.

 TESTIMONY OF PAUL A. MILLER,\1\ PRESIDENT, AMERICAN LEAGUE OF 
                           LOBBYISTS

    Mr. Miller. Madam Chairman, I have a longer statement I 
would like to ask that be entered into the record, if possible.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Miller with attachments appears 
in the Appendix on page 100.
---------------------------------------------------------------------------
    Chairman Collins. Without objection.
    Mr. Miller. Thank you. Madam Chairman, Members of the 
Committee, my name is Paul Miller, and I serve as President of 
the American League of Lobbyists (ALL). I am real pleased to be 
here to hear the discussions today on lobbying reform and your 
attempts to do so.
    As this Committee knows, lobbying Congress is not only a 
completely legitimate part of our democratic process, it is 
also essential to its effectiveness. Lobbying is a fundamental 
right guaranteed by our Constitution, and professional 
lobbyists, such as ALL's members, perform a critically 
important role in helping citizens communicate factual 
information and in advocating their interests and concerns to 
public officials, like yourselves.
    Regrettably, a widespread misperception exists today about 
what lobbying involves and what lobbyists do. This 
misperception is not new, but it has been elevated to an 
extraordinary level as a result of the activities of Mr. 
Abramoff and his associates. Those activities not only strike 
at the heart of our democracy, they also have damaged severely 
the vast majority of lobbying professionals who perform their 
role in our democracy in an ethical and totally legitimate way.
    Members of our profession are as disgusted and appalled by 
what Mr. Abramoff has done as you are, but we should not allow 
the actions of a few unscrupulous operatives to paint our 
entire profession as crooks who will stop at nothing to have 
their way with Members of Congress. This is far from the truth, 
and I hope today's hearing will demonstrate that.
    The past 3 weeks have not been easy on anyone. We have seen 
real outrage by the public by what they perceive as a profound 
corruption of their government. Our government is not corrupt. 
Lobbyists are not bribing people. And Members of Congress are 
not being bought for campaign contributions. One man broke the 
law by lying, cheating, and stealing from his clients. 
Unfortunately, he was a lobbyist.
    I want to assure this Committee and the American people 
that Mr. Abramoff is not the norm in our profession. He truly 
is the exception.
    Lobbyists represent the interests of every American, from 
small rural towns to the big cities. If you were ever a member 
of the Girl Scouts, if you ever used a library, if you ever 
road a snowmobile, if you ever played on a sports team, if you 
own a gun or think ordinary people should not be allowed to own 
guns, if you are pro-life or pro-choice, if you are 65 or 
older, if you work in a steel mill or own a steel mill, if you 
have done any of these activities, if you share any of these 
characteristics, you have been represented at some time or 
another by a lobbyist, and that lobbyist was ethical, 
professional, and fulfilling a vital role in our democracy.
    Virtually everyone in our democracy, whether they are aware 
of it or not, has had a lobbyist working on their behalf at one 
time or another in a way that is quite legitimate and that 
enjoys the protection of our Constitution. You could say that 
lobbying, when it is practiced ethically, is as American as Mom 
and apple pie to this country.
    Effective lobbying is not about access or money, it is 
about forthright, ethical communications on issues that impact 
the livelihood of legitimate businesses and constituents back 
home that you all represent. What most lay people view as 
lobbying, the actual communication with government officials, 
represents the smallest portion of a lobbyist's time. A far 
greater portion is devoted to those other activities of 
preparation, information, and communication. Those activities, 
Madam Chairman, are essential to the fabric of our democracy, 
and when they are abused and corrupted, we all suffer.
    But before any new lobbying reforms are enacted, we urge 
Congress not to allow the egregious actions of a few to provoke 
a knee-jerk reaction that may result in more damage to the 
system.
    It is our view that any new reforms will have to include 
four key elements if they are to be effective. They are 
enforcement, review of the current rules and regulations, 
education and training, and the Constitution.
    The first step has to be a comprehensive review of the 
current rules to see what, if any, rules aren't working. Right 
now, I don't think we can say with certainty that the system is 
broken. We can't know if the current rules work or not because 
we don't have an enforcement mechanism in place to gauge this. 
No matter how well intentioned the reform effort may be, it 
will be meaningless to the American people if we first don't 
begin by talking about enforcement of the current rules.
    If we can solve the enforcement issue, we then have to 
discuss the current rules and regulations. We are here today 
because one lobbyist and a PR consultant broke the law. This is 
not a widespread scandal that has lots of lobbyists caught up 
in breaking the law. It is one lobbyist. I think this is 
important to keep in mind as we debate the need for further 
reforms.
    In terms of rules and regulations, I should mention the 
American League of Lobbyists has its own Code of Ethics. This 
document, which I have attached as part of my testimony, is a 
source of great pride for our members. It is a voluntary code, 
but one that our members respect and live up to and value for 
the way it so clearly defines the boundaries of appropriate 
lobbying. It is a code that makes our profession stronger and 
better, and for the record, Mr. Abramoff is not and never was a 
member of ours.
    In terms of education and training for the profession, ALL 
has been working for the past 19 months in partnership with 
George Mason University's New Century College on an ambitious 
new lobbying certification program. It can no longer be 
acceptable to just fill out the right forms and submit them on 
time in order to call yourself a lobbyist. We have to do 
better, and we will do better. We need standards to guide our 
profession and the work we do. We believe our new lobbying 
certification program will begin to set that standard.
    In addition, our lobbyist tool kit, which I have brought 
with me today, provides all lobbyists with valuable information 
on staying compliant in an ever-changing profession. We need to 
change attitudes throughout the entire legislative structure by 
making this education and training available to everyone, not 
just to lobbyists, but Members of Congress and their staffs, as 
well, to keep them up to speed on what is going on.
    Finally, if Congress believes reforms are necessary, we 
need to make sure that these reforms do not limit or impair 
anyone from exercising their guaranteed constitutional right to 
petition their government, even if that means using a lobbyist 
to do so. Our founding Fathers believed that the right to 
petition government was critical to an open democracy. That is 
just as vital in today's environment as it was over 200 years 
ago. If reforms are needed, I believe we can get to those 
reforms without limiting a person's right to petition their 
government. We hope Congress will agree with us.
    Because of what is at stake here, we should not be in a 
hurry to implement new reforms. We should take as much time as 
needed to ensure that any reforms are done right. I think the 
American people will understand and be better served if all 
work together to get this right the first time.
    Madam Chairman, we welcome the opportunity to work with you 
and your colleagues on this issue. We look forward to a process 
by which we will be able to submit the current LDA to a 
thoughtful and rigorous review and find ways to make it more 
effective, and we are confident that, working together, we will 
restore people's faith in government and in the legislative 
process. We owe them no less.
    I want to thank you for the opportunity, and I am happy to 
address any questions you or anybody else may have today. Thank 
you.
    Chairman Collins. Thank you.
    Mr. Wertheimer, you stated in your testimony that 
grassroots lobbying may well account for as much, if not more, 
of the funds spent to lobby Congress as direct lobbying 
expenditures, and we have indeed seen a growth of professional 
grassroots lobbying firms that do nothing else, and you have 
advocated disclosure for those firms. Do you think that 
organizations such as the National Right to Life Organization 
or NARAL on the other side should also be required to disclose 
when they have spent money to activate their grassroots 
members?
    Mr. Wertheimer. We have supported the provisions in the 
McCain-Lieberman bill, which basically focus this on the 
expenditures made to reach the public outside organizations. 
Those provisions deal with money spent on heavily paid for 
media campaigns, on computerized phone banking directed at the 
public. So we support the McCain-Lieberman provisions, and 
those provisions do not cover communications within an 
organization's own membership.
    If I might just add a point here, we strongly do not 
believe that this is the problem caused by one man. We believe 
that this problem facing the Committee today was caused by one 
system, and it is a system that allows a lobbyist to do the 
following with money: Make a campaign contribution, hold a 
fundraiser, raise money for you, and that is why we propose 
strict new limits on what lobbyists can give and prohibition of 
lobbyists raising money for Members of Congress. The lobbyists 
can arrange trips for Members of Congress, arrange company 
planes for Members of Congress, pay for parties for Members of 
Congress, pay for meals and tickets to sporting events for 
Members of Congress, make contributions to foundations 
established or controlled by Members, finance retreats and 
conferences by Members.
    This is not about the right to petition. I think everyone 
agrees that everyone should have the right to petition. This is 
about the way money is used by lobbyists and their clients and 
the organizations they work for on Capitol Hill at the expense 
of the American people, and it shows up in these polls. It 
shows up in a rather astounding finding that two-thirds of the 
country would ban contributions from lobbyists and 90 percent 
would prevent lobbyists from giving members anything. Those 
concerns require bold reforms, and we very much hope this 
Committee will move forward in that light.
    Chairman Collins. Mr. Miller, Mr. Samuel earlier mentioned 
that the AFL-CIO missed a filing deadline and no one noticed. 
They caught the error themselves. It underscores the point that 
Mr. Wertheimer and several other witnesses have made about the 
lack of enforcement for current requirements. Do you have any 
recommendations to improve the accountability, oversight, and 
enforcement?
    Mr. Miller. First of all, I think this is the heart of the 
question that we are here debating right now. We don't know if 
the current rules work or not because we don't have any 
enforcement mechanism in place. The House and Senate, and even 
the Justice Department, they don't have the financial and the 
human resources to undertake this right now. So until you 
settle that question, I think we are going to run into some of 
these problems and you are going to force people to self-police 
themselves.
    I mean, Jack Abramoff did get caught by the system. He got 
caught by other lobbyists who turned him over to a reporter. So 
the system did work in many regards, but right now we don't 
have a system that works effectively. We have to find some sort 
of enforcement mechanism to handle that before we can even move 
forward. And the legislation and the ideas are nice, but until 
you address and fix that problem, it is going to be 
meaningless. I mean no disrespect by that, but that has to be 
the core of what you are trying to accomplish here.
    Chairman Collins. Do you have any enforcement mechanism 
that accompanies your Code of Conduct? Is there a self-
regulatory organization aspect to it?
    Mr. Miller. No. Our code is voluntary, but we do as an 
organization have the right to kick you out of the organization 
and not ask you back if you are found to have broken any of our 
Code of Ethics or any other rules or regulations. We are now 
implementing a new--again, it is voluntary, but a lobbying 
certification program through George Mason University's New 
Century College.
    In my belief, we have to provide better education out 
there. It can no longer be the standard that you fill out the 
right forms and call yourself a lobbyist and you find clients 
to pay you. You have to know the rules, and I would venture to 
guess there are a lot of people out there, members, staff, and 
lobbyists, who don't know the right rules.
    Chairman Collins. Mr. Wertheimer, one final quick question 
for you, although I am sure we are going to be talking to both 
of you over the next few weeks. You heard the debate this 
morning on travel, and your testimony just now seemed to call 
for an outright ban on any privately sponsored travel. Do you 
think that an exception should be made for a public policy 
institute like the Aspen Institute?
    Mr. Wertheimer. Let me first, at the outset, note for the 
Committee's information that Dick Clark is the Chairman of my 
Board. [Laughter.]
    I have worked with him for many years. He was a great 
leader in this Congress in the 1970s for campaign finance and 
ethics reforms, and he has devoted his life to public service. 
I think he is a great person.
    Our position is that your travel ought to be paid for by 
the public and that private-financed travel should stop. Now, 
the question has come up in different ways about writing 
exceptions to this provision. Writing narrow exceptions that 
work is a very difficult task. When the gift rules were 
written, travel was excepted. As it was written in as an 
exception, in theory, it was supposed to be contained. It got 
out of control. When the gift ban, or the limit to $50, was 
written, there was a little exception in there for a group who 
wanted to put on an event honoring a member, and we wind up 
with $250,000 parties paid for by lobbyists, companies at the 
National Conventions for single individuals or specific Members 
of Congress. So it becomes very hard to write specific 
exemptions.
    If this Committee looks at exemptions, obviously, we and 
the groups who are interested in this will look at it and will 
give you our response. But our basic view is that privately 
financed travel should stop and that it is hard to write 
exceptions here.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    I got a kick out of the very accurate point that Mr. Miller 
made that the Abramoff scandal was broken in the first instance 
not by any enforcement mechanism, but by other lobbyists who 
felt that Abramoff was taking their clients away. There is a 
certain market motivation that helped to break the story, and 
they called, I believe, Susan Schmidt at the Washington Post, 
and then Senator McCain did that extraordinary series of 
hearings he held.
    In this same regard, as you know, Mr. Miller, a lot of 
attention has been focused on the so-called K Street Project 
where Members of Congress apparently were pressuring lobbying 
firms to hire certain people of a particular party. I presume 
that people in your association, lobbyists, don't like that.
    At least one of the bills, Senator Reid's bill, makes an 
attempt to make it illegal for a member to take or withhold 
action in an attempt to influence a private employer's hiring 
decisions for partisan reasons. What do you think about that?
    Mr. Miller. We agree with you. I don't think anybody--at 
least that I have talked to--is proud of some of the things 
that they hear about the K Street Project or any other project. 
I think both sides have similar types, or had similar types of 
projects in the past. They don't have a place here in 
Washington, and I think if you can do something about them, 
yes, I think you would get our support.
    But the problem I think you get on some of these issues is 
you can't really legislate ethics or morality and values. I 
think people have to be better accountable and more accountable 
to their profession and the standards that they are supposed to 
live by. I just don't know how you make that effective other 
than say you can't do it because you are never going to really 
have any--unless somebody writes it down, how are you going to 
prove that they did those types of projects?
    Senator Lieberman. Yes. Obviously, if two people have a 
conversation, you have a possibility for somebody to testify to 
what happened, and that is the challenge we have in legislating 
in this area.
    Let me ask you something else. Some of the bills ban gifts 
by lobbyists to Members of Congress. Others call for 
disclosure. Let me give you an opportunity to address that 
issue. If you take the position that there shouldn't be a ban, 
why not? I will just say for the record that under the current 
law, as I understand it, lobbyists are limited to giving 
Members of Congress a gift that cannot be worth more than $50, 
and cumulatively during the year not more than $100, and gifts 
include meals and obviously would include tickets to sports 
events or whatever else. So if, in fact, you don't support a 
ban on gifts, why not?
    Mr. Miller. I think you have reasonable rules in place 
right now, and the question becomes, if you are able to buy 
somebody, whether it be a staffer or a Member of Congress, for 
a $50 meal or $100 worth of meals throughout the year, I think 
that says something about our system much more than what we are 
talking about here today.
    I don't support banning gifts. I think they have a place in 
our system. Right now, if you go to any office--you all are 
very familiar--if somebody wants to talk to you or your staff, 
the offices are very crowded, phones are ringing, people are in 
and out, and sometimes you are meeting in the lobby, you are 
meeting in the hallway. You don't have the time and the focus 
of people at times. By going to a lunch that may cost $50, you 
are having a little bit more time to sit down, have some real 
dialogue to talk about these issues.
    If you take that away and you ban it, there have been some 
newspaper articles that say they will just move it to the 
political side and make it fundraising events type of thing. I 
disagree with that. I think we need to allow for some sort of 
gift. The $100 is reasonable. We just need to figure out a way 
to make it enforceable.
    Senator Lieberman. OK. Mr. Wertheimer, you and Mr. Miller 
both have talked about the need for greater enforcement. As I 
understand the status quo, lobbyists file their reports with 
the Secretary of the Senate or the Clerk of the House. You 
probably know more about this than I do, or Mr. Miller does. I 
gather there are a few staff members in each place that 
basically accept them, but there is not much beyond that in the 
status quo. Maybe I should ask you first if my understanding is 
right. In other words, are they open so the press can go or 
other organizations, other competitors can go and review them?
    Mr. Wertheimer. Our feeling is that both in lobbying 
reports filed with the Clerk of the House and the Secretary of 
the Senate, with financial disclosure, with travel reports, the 
resources are not there to do more than accept them, and there 
are certainly not there to do serious oversight, monitoring, 
review, and that is part of a much larger oversight and 
enforcement issue in Congress that is a core question. We 
believe it is essential to deal with that.
    Where I would strongly disagree with Mr. Miller is we 
believe you should deal with both now. I don't think there is 
any question that there are serious problems with the current 
rules and changes that need to be made.
    We have outlined a proposal for an Office of Public 
Integrity in the Congress----
    Senator Lieberman. Take a little time and talk about that. 
Senator Reid has an Office of Public Integrity in his proposal, 
but I don't believe it has all the authority that your ``six 
benchmarks'' proposal has. So how would it work?
    Mr. Wertheimer. Here is what we think should be done. 
First, this office, which is in the Congress, should be 
nonpartisan, professional, independent, and headed by a 
publicly credible individual appointed by the Joint Leadership. 
That is a tough assignment, and it is critical.
    But this office should have the following responsibilities. 
It should be able to receive, monitor, and oversee reports 
filed by members and filed by lobbyists. It should be the 
office that advises and provides you advance information--
members, staff, lobbyists--on how to comply with the law.
    It should have the ability to conduct non-frivolous ethics 
investigations, to respond to complaints filed by members or 
outsiders, or own its own grounds to pursue investigations as 
to whether ethics violations have occurred in either the House 
or Senate. If it concludes that there is sufficient information 
that this matter should go forward, it would then switch to the 
Ethics Committees in the sense that this office would present 
the cases to the Ethics Committees, which would serve as the 
judges here. The Ethics Committee would decide whether 
violations had occurred and whether the matter should then go 
forward to the full body for action and sanctions.
    While the Ethics Committees are the judges, this process 
would allow in an independent way matters to go forward 
sufficiently so they will be tested and determined when serious 
ethics violations occur. Right now, and it has been this way 
forever, it is very hard to serve on the Ethics Committee. It 
is a terrible job. You have to judge your peers. There is 
built-in inherent resistance to moving forward with problems, 
but Ethics Committees have dealt with fundamental problems--
Koreagate and ABSCAM in the 1970s, the Keating Five affair in 
the 1980s. I would point out that with everything that has 
happened in the Abramoff matter, there is no public information 
that tells us that any investigation has been conducted to date 
by either Ethics Committee.
    So the Ethics Committees can deal with tough problems, but 
that is not the inclination and that is why you need a body 
that is going to take a look at these things, and if you find 
serious problems, you bring them to the Ethics Committees to 
judge. They can't be blocked at the outset.
    And the last part of this responsibility would be to refer 
problems with lobbyists and lobbying reports to the Justice 
Department, which currently has civil enforcement 
responsibilities but doesn't review any of these reports.
    The one additional item I would add, right now, all of the 
responsibility for complying with some of these rules rests on 
members. If a lobbyist provides $500 to pay for a meal, the 
lobbyist isn't violating anything. You are violating it as a 
member. We think that in situations like travel and gifts that 
responsibilities and prohibitions have to be placed on the 
lobbyists as well as the members. I think this will gain the 
attention of the lobbyists and be a very strong incentive for 
lobbyists to make sure they comply with these rules as well as 
members.
    Senator Lieberman. That is a very serious proposal which 
deserves consideration.
    Mr. Wertheimer. And we would, if I could just add, like to 
submit some more information to this Committee on the proposal.
    Senator Lieberman. Please.
    Mr. Miller. Senator Lieberman, can I just add to that 
point?
    Senator Lieberman. Yes, go right ahead.
    Mr. Miller. Or Madam Chairman, can I add to that point? We 
don't disagree with my colleague over here. One of the things 
that we have thrown out there and discussed earlier this week 
was why not maybe possibly look at GAO taking this over and 
undertaking this project. If there is some credibility to 
having them do it, maybe it is an option for you all to look 
at.
    If you all are looking to make some real reforms right now 
that are fast and easy to do, two steps. We are not opposed to 
transparency. Some say that we don't want to file more than 
twice a year. We don't have a problem doing it. What we have a 
problem with is the burdensome and cumbersome processes that we 
have. If the House and Senate could come up with one system, 
electronic filing system, this would make it so much easier for 
us to do and the transparency would be immediate for the 
general public. So if you could fix that problem, that is 
something that should be easy enough to do and something the 
general public, I think, would be very happy with.
    The other thing right now, a second proposal is we hear a 
lot of numbers about how many registered lobbyists there are in 
this town, and I don't think anybody actually has the right 
number. I was told right before this hearing by a company that 
tracks that that there are 11,500 registered lobbyists. We 
heard as high as 35,000. I think if you talk to the folks in 
the Senate, they will tell you that if you are a woman and you 
get married and you change your name, you are in there twice 
because they don't take your maiden name out. If you are 
retired, you are still kept in the database. And if you are 
deceased, you are still kept in the database. So if we could 
get a better, accurate reflection of how many lobbyists there 
truly are in this town, I think we wouldn't have to throw so 
many different numbers around.
    Senator Lieberman. Thanks, Mr. Miller, Mr. Wertheimer. 
Thanks for still being in the fight.
    Mr. Wertheimer. Thanks very much for this opportunity.
    Mr. Miller. Thank you both.
    Chairman Collins. Thank you. I want to thank all of our 
witnesses for their contributions today. We do look forward to 
working further with you to develop legislative reforms. We 
welcome any additional information to be submitted to the 
record and to the Committee for consideration, not only by our 
witnesses today but by those who didn't have the opportunity to 
testify today. The hearing record will remain open for 15 days.
    This hearing is now adjourned.
    [Whereupon, at 12:32 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6750.001

[GRAPHIC] [TIFF OMITTED] T6750.002

[GRAPHIC] [TIFF OMITTED] T6750.003

[GRAPHIC] [TIFF OMITTED] T6750.004

[GRAPHIC] [TIFF OMITTED] T6750.005

[GRAPHIC] [TIFF OMITTED] T6750.006

[GRAPHIC] [TIFF OMITTED] T6750.007

[GRAPHIC] [TIFF OMITTED] T6750.008

[GRAPHIC] [TIFF OMITTED] T6750.009

[GRAPHIC] [TIFF OMITTED] T6750.010

[GRAPHIC] [TIFF OMITTED] T6750.011

[GRAPHIC] [TIFF OMITTED] T6750.012

[GRAPHIC] [TIFF OMITTED] T6750.013

[GRAPHIC] [TIFF OMITTED] T6750.014

[GRAPHIC] [TIFF OMITTED] T6750.015

[GRAPHIC] [TIFF OMITTED] T6750.016

[GRAPHIC] [TIFF OMITTED] T6750.017

[GRAPHIC] [TIFF OMITTED] T6750.018

[GRAPHIC] [TIFF OMITTED] T6750.019

[GRAPHIC] [TIFF OMITTED] T6750.020

[GRAPHIC] [TIFF OMITTED] T6750.021

[GRAPHIC] [TIFF OMITTED] T6750.022

[GRAPHIC] [TIFF OMITTED] T6750.023

[GRAPHIC] [TIFF OMITTED] T6750.024

[GRAPHIC] [TIFF OMITTED] T6750.025

[GRAPHIC] [TIFF OMITTED] T6750.026

[GRAPHIC] [TIFF OMITTED] T6750.027

[GRAPHIC] [TIFF OMITTED] T6750.028

[GRAPHIC] [TIFF OMITTED] T6750.029

[GRAPHIC] [TIFF OMITTED] T6750.030

[GRAPHIC] [TIFF OMITTED] T6750.031

[GRAPHIC] [TIFF OMITTED] T6750.032

[GRAPHIC] [TIFF OMITTED] T6750.033

[GRAPHIC] [TIFF OMITTED] T6750.034

[GRAPHIC] [TIFF OMITTED] T6750.035

[GRAPHIC] [TIFF OMITTED] T6750.036

[GRAPHIC] [TIFF OMITTED] T6750.037

[GRAPHIC] [TIFF OMITTED] T6750.038

[GRAPHIC] [TIFF OMITTED] T6750.039

[GRAPHIC] [TIFF OMITTED] T6750.040

[GRAPHIC] [TIFF OMITTED] T6750.041

[GRAPHIC] [TIFF OMITTED] T6750.042

[GRAPHIC] [TIFF OMITTED] T6750.043

[GRAPHIC] [TIFF OMITTED] T6750.087

[GRAPHIC] [TIFF OMITTED] T6750.088

[GRAPHIC] [TIFF OMITTED] T6750.044

[GRAPHIC] [TIFF OMITTED] T6750.045

[GRAPHIC] [TIFF OMITTED] T6750.046

[GRAPHIC] [TIFF OMITTED] T6750.047

[GRAPHIC] [TIFF OMITTED] T6750.048

[GRAPHIC] [TIFF OMITTED] T6750.049

[GRAPHIC] [TIFF OMITTED] T6750.050

[GRAPHIC] [TIFF OMITTED] T6750.051

[GRAPHIC] [TIFF OMITTED] T6750.052

[GRAPHIC] [TIFF OMITTED] T6750.053

[GRAPHIC] [TIFF OMITTED] T6750.054

[GRAPHIC] [TIFF OMITTED] T6750.055

[GRAPHIC] [TIFF OMITTED] T6750.056

[GRAPHIC] [TIFF OMITTED] T6750.057

[GRAPHIC] [TIFF OMITTED] T6750.058

[GRAPHIC] [TIFF OMITTED] T6750.059

[GRAPHIC] [TIFF OMITTED] T6750.060

[GRAPHIC] [TIFF OMITTED] T6750.061

[GRAPHIC] [TIFF OMITTED] T6750.062

[GRAPHIC] [TIFF OMITTED] T6750.063

[GRAPHIC] [TIFF OMITTED] T6750.064

[GRAPHIC] [TIFF OMITTED] T6750.065

[GRAPHIC] [TIFF OMITTED] T6750.066

[GRAPHIC] [TIFF OMITTED] T6750.067

[GRAPHIC] [TIFF OMITTED] T6750.068

[GRAPHIC] [TIFF OMITTED] T6750.069

[GRAPHIC] [TIFF OMITTED] T6750.070

[GRAPHIC] [TIFF OMITTED] T6750.071

[GRAPHIC] [TIFF OMITTED] T6750.072

[GRAPHIC] [TIFF OMITTED] T6750.073

[GRAPHIC] [TIFF OMITTED] T6750.074

[GRAPHIC] [TIFF OMITTED] T6750.075

[GRAPHIC] [TIFF OMITTED] T6750.076

[GRAPHIC] [TIFF OMITTED] T6750.077

[GRAPHIC] [TIFF OMITTED] T6750.078

[GRAPHIC] [TIFF OMITTED] T6750.079

[GRAPHIC] [TIFF OMITTED] T6750.080

[GRAPHIC] [TIFF OMITTED] T6750.081

[GRAPHIC] [TIFF OMITTED] T6750.082

[GRAPHIC] [TIFF OMITTED] T6750.083

[GRAPHIC] [TIFF OMITTED] T6750.084

[GRAPHIC] [TIFF OMITTED] T6750.085

[GRAPHIC] [TIFF OMITTED] T6750.086

                                 <all>

</pre></body></html>
